Board of Governors of the Federal Reserve System




          Summary Analysis of
          Failed Bank Reviews




       Office of Inspector General



                                      September 2011
                                       September 30, 2011



Patrick M. Parkinson
Director, Division of Banking Supervision and Regulation
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Mr. Parkinson:

     This report analyzes failed state member bank reports that the Office of the Inspector
General issued between June 29, 2009, and June 30, 2011, to determine the common
characteristics, circumstances, and emerging themes related to (1) the cause of the bank failures
and (2) Federal Reserve supervision of the failed institutions. Our analysis yielded a series of
common observations. We also conducted supplemental research and analysis to understand
why certain institutions withstood the financial crisis better than others.

      With respect to the cause of the state member bank failures, the majority of the reports
cited common themes. In addition to the economic decline that triggered asset quality
deterioration and significant losses at each of the failed banks, the common themes included (1)
management pursuing robust growth objectives and making strategic choices that proved to be
poor decisions; (2) rapid loan portfolio growth exceeding the bank’s risk management
capabilities and/or internal controls; (3) asset concentrations tied to commercial real estate or
construction, land, and land development (CLD) loans, which increased the bank’s vulnerability
to changes in the marketplace and compounded the risks inherent in individual loans; and (4)
management failing to have sufficient capital to cushion mounting losses. Additionally, the
reports revealed certain practices that contributed to specific failures, such as risky funding
strategies and incentive compensation programs that inappropriately encouraged risk taking.

      With respect to the supervision of the failed state member banks, many of the reports noted
that examiners identified key safety and soundness risks, but did not take sufficient supervisory
action in a timely manner to compel the Boards of Directors and management to mitigate those
risks. In many instances, examiners eventually concluded that a supervisory action was
necessary, but that conclusion came too late to reverse the bank’s deteriorating condition.
Mr. Patrick M. Parkinson                        2                            September 30, 2011


      In our supplemental research and analysis comparing failed banks to those that withstood
the financial crisis, we found that lower commercial real estate and CLD concentration levels,
strong capital positions, and minimal dependence on non-core funding were key differentiating
characteristics. Our research also revealed a correlation between high CLD concentration levels
and the likelihood of failure during the recent financial crisis.

      Based on our mandate to assess the bank failures to determine how losses to the Deposit
Insurance Fund might be avoided in the future and our assessment of the emerging themes from
the failures we reviewed, this report contains three recommendations and three matters for
consideration.

     We provided our draft report to you for review and comment. In a response included as
Appendix 6, your Deputy Director concurred with the general findings of the report and
generally agreed with the report’s recommendations and matters for consideration.

      We appreciate the cooperation that we received from the Board of Governors of the Federal
Reserve System staff during our review. The Office of Inspector General principal contributors
to this report are listed in Appendix 7. This report will be added to our public web site and will
be summarized in our next semiannual report to Congress. Please contact me if you would like
to discuss this report or any related issues.

                                           Sincerely,



                                       Anthony J. Castaldo
                                   Associate Inspector General
                                 for Inspections and Evaluations

Enclosure

cc:   Chairman Ben S. Bernanke
      Vice Chair Janet L. Yellen
      Governor Daniel K. Tarullo
      Governor Elizabeth A. Duke
      Governor Sarah Bloom Raskin
Board of Governors of the Federal Reserve System


           Summary Analysis of
           Failed Bank Reviews




       Office of Inspector General




                                          September 2011
                                                        Table of Contents


                                                                                                                                       Page
I.          Background on Failed Bank Reporting Requirements ............................................ 7

II.         Purpose, Scope, and Methodology.............................................................................. 7

III.        Summary of Failed Bank Reports Issued by the OIG .............................................. 8

IV.         Common Elements that Contributed to SMB Failures ............................................ 8

V.          Observations Regarding Federal Reserve Supervision of
            Failed SMBs ................................................................................................................ 11

VI.         Recommendations ...................................................................................................... 12

VII.        Matters for Consideration ......................................................................................... 13

VIII. Analysis of Comments ............................................................................................... 14

Appendixes.............................................................................................................................. 15

     Appendix 1 – Detailed Analysis Results .............................................................................. 17

     Appendix 2 – List of SMB Failures ...................................................................................... 43

     Appendix 3 – Summary Results Tables ................................................................................ 47

     Appendix 4 – Glossary of Banking and Regulatory Terms .................................................. 49

     Appendix 5 – CAMELS Rating System ............................................................................... 55

     Appendix 6 – Deputy Division Director’s Comments .......................................................... 57

     Appendix 7 – Office of Inspector General Principal Contributors to This Report ............... 59




                                                                       5
                                Summary Analysis of Failed Bank Reviews
I.        Background on Failed Bank Reporting Requirements
      Section 38(k) of the Federal Deposit Insurance Act (FDI Act) requires that the Inspector General
      of the appropriate federal banking agency complete a review of the agency’s supervision of a
      failed institution when the projected loss to the Deposit Insurance Fund (DIF) is material. The
      FDI Act, as amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act
      (Dodd-Frank Act), defines a material loss to the DIF as an estimated loss in excess of $200
      million. 1 This materiality threshold applies to losses to the DIF that occur between January 1,
      2010, and December 31, 2011.
      The Dodd-Frank Act also created new reporting requirements for failures that result in losses
      below the $200 million materiality threshold. In these situations, the Inspector General must
      review the failure to determine, among other things, whether the loss exhibits “unusual
      circumstances” that warrant an in-depth review. If unusual circumstances exist, the Inspector
      General must prepare a report consistent with the requirements of a material loss review (MLR).
      The Office of Inspector General (OIG) of the Board of Governors of the Federal Reserve System
      considers a loss to the DIF to present unusual circumstances when the conditions associated with
      the bank’s deterioration, ultimate closure, or supervision have not been previously addressed in
      an MLR or an in-depth review, or the failure involved potentially fraudulent activity.
      For each MLR and in-depth review (collectively referred to as failed bank reviews), section
      38(k) of the FDI Act requires the Inspector General of the appropriate federal banking agency to

      • review the supervision of the institution, including the agency’s implementation of prompt
        corrective action (PCA);
      • ascertain why the institution’s problems resulted in (1) a material loss to the DIF or (2) a
        failure beneath the material loss threshold that presents unusual circumstances; and
      • make recommendations for preventing any such losses in the future.
      Pursuant to the Dodd-Frank Act, the OIG is not required to prepare a report when a loss to the
      DIF falls beneath the materiality threshold and no unusual circumstances surround the failure.
      However, the OIG must explain its determination concerning the absence of unusual
      circumstances in a semiannual report.

II.       Purpose, Scope, and Methodology
      We conducted a cross-cutting analysis of our failed bank reviews to determine the common
      characteristics, circumstances, and emerging themes related to (1) the cause of the bank failures
      and (2) Federal Reserve supervision of the failed institutions.2 Our assessment yielded a series
      of common observations. We also conducted supplemental research and analysis to understand
      why certain institutions withstood the financial crisis better than others. Consistent with the
      OIG’s legislative mandate to provide recommendations concerning the prevention of bank

              1
                 Prior to the enactment of the Dodd-Frank Act on July 21, 2010, section 38(k) of the FDI Act defined a
      material loss to the DIF as the greater of $25 million or 2 percent of the institution’s total assets.
               2
                 The respective Federal Reserve Banks conduct banking supervision activities pursuant to delegated
      authority from the Board of Governors of the Federal Reserve System.

                                                               7
      failures that result in material losses to the DIF, this report contains three recommendations and
      presents three matters for consideration. We performed our review between October 2010 and
      July 2011 in accordance with the Quality Standards for Inspection and Evaluation issued by the
      Council of the Inspectors General on Integrity and Efficiency.

      It is important to note that our assessment was limited to the 35 state member bank (SMB)
      failures we reviewed. These failures represent 4.2 percent of the approximately 824 SMBs
      supervised by the Board of Governors of the Federal Reserve System (Federal Reserve Board)
      during this period. The total estimated loss to the DIF associated with these failures was
      approximately $4.8 billion.

      Appendix 1 contains selected excerpts from MLRs and in-depth reviews relevant to the
      contributing causes and supervision observations related to the failed institutions. This appendix
      also describes the results of our supplemental analysis.

III.     Summary of Failed Bank Reports Issued by the OIG

      Between June 29, 2009, and June 30, 2011, the OIG completed reviews of 35 SMB failures. 3 As
      shown in Appendix 2, the SMB failures were concentrated in the Southeast, Midwest, and West;
      and specific states within those regions—Florida, Georgia, Illinois, Michigan, and California—
      experienced multiple failures. Of these 35 failures, (1) 18 resulted in MLRs, (2) 2 required in-
      depth reviews, and (3) 15 did not present unusual circumstances that required an in-depth review
      as identified in our October 28, 2010, and April 29, 2011, Semiannual Reports to Congress. 4

      With respect to the total asset size of the failed SMBs, 31 of the 35 failures clustered within three
      peer groups: (1) 11 banks with $100 to $300 million in assets, (2) 16 banks with $300 million to
      $1 billion in assets, and (3) 4 banks with $1 to $3 billion in assets. The average loss to the DIF
      associated with these failures was 21 percent of total assets.

IV.      Common Elements that Contributed to SMB Failures

   For the 20 reviews that resulted in OIG reports, in general, the majority exhibited a common fact
   pattern that contributed to the respective bank’s failure. In addition to the economic decline that
   triggered asset quality deterioration and significant losses at each of the failed banks, common
   elements included (1) management pursuing aggressive growth objectives and making strategic
   choices that eventually proved to be poor decisions; (2) rapid loan portfolio growth exceeding
   the bank’s risk management capabilities and/or internal controls; (3) asset concentrations tied to
   commercial real estate (CRE) or construction, land, and land development (CLD) loans, which
   increased the bank’s vulnerability to changes in the marketplace and compounded the risks
   inherent in individual loans; and (4) management failing to raise sufficient capital to cushion
   mounting losses.

             3
               During this time period, there were 300 bank failures according to information available on the Federal
   Deposit Insurance Corporation’s web site, so the SMB failures represent approximately 12 percent of the total
   failures during the time period for our review.
             4
               Our October 28, 2010, Semiannual Report to Congress (SAR) describes 10 failures and our April 29,
   2011, SAR describes 5 failures that did not present usual circumstances.

                                                             8
Of these common elements, this report focuses on aggressive growth strategies, asset
concentrations, and ineffective internal controls and poor risk management. We also discuss
certain practices that contributed to specific bank failures, such as risky funding strategies and
incentive compensation programs that inappropriately encouraged risk taking.

1. Aggressive Growth and Poor Strategic Decision-making – Many bank failures involved
   the Board of Directors and management making strategic decisions to pursue aggressive
   growth that increased the bank’s risk profile and ultimately contributed to the failure. In
   Appendix 1, we highlight seven examples of strategic decisions that proved to be poor
   decisions with the benefit of hindsight. These decisions included departing from the
   institutions’ traditional business strategy by expanding into new activities or market areas;
   introducing new product offerings; continuing loan growth following initial signs of a market
   downturn; and pursuing growth opportunities through mergers, acquisitions, or loan pool
   purchases without conducting sufficient due diligence.

2. Asset Concentrations in CLD Loans Correlated to Likelihood of Failure – Asset
   concentrations contributed to each of the 20 failures. We observed that the vast majority of
   the failed institutions had high CRE concentrations. 5 Because of the apparent significance of
   this finding, we conducted additional analysis of the top 25 SMBs that had high CRE
   concentration levels prior to the financial crisis (using data as of June 30, 2007) to better
   understand the role of concentrations in the failures. We found that the existence or
   magnitude of a CRE concentration prior to the onset of the crisis was not necessarily
   predictive of a bank failure; rather, our analysis suggested a correlation between a
   concentration in the CLD loan component of CRE and a bank’s likelihood to fail.

    We also reviewed institutions that maintained a CAMELS composite rating of 1 or 2 through
    the financial crisis to analyze their concentration levels to identify key differentiators
    between those banks and the failed SMBs. 6 Our research revealed that strong capital
    positions, loan portfolio diversification, and low reliance on non-core funding were common
    characteristics among the highest rated institutions.

    Appendix 1 describes the results of our research in greater detail.

3. Reliance on Certain Specific Funding Sources – Ten of the 20 banks failed, in part,
   because of an over-reliance on non-core funding; and two of the 10 banks failed, in part,
   because of an over-reliance on mortgage loan asset sales to the secondary market. Reliance
   on non-core funding sources is a risky strategy because these funds may not be available in
   times of financial stress and can lead to liquidity shortfalls. In addition, the costs associated

         5
           Supervision and Regulation (SR) Letter 07-01, Interagency Guidance on Concentrations in Commercial
Real Estate, indicates that a significant CRE concentration exists at 300 percent of total risk-based capital and a
significant CLD concentration exists at 100 percent of total risk-based capital.
         6
           Under the current supervisory guidance, each institution is assigned a composite rating based on an
evaluation and rating of six essential components of the institution’s financial condition and operations. The
CAMELS acronym represents six components: Capital adequacy, Asset quality, Management practices, Earnings
performance, Liquidity position, and Sensitivity to market risk. Each component and overall composite score is
assigned a rating of 1 through 5, with 1 as the highest rank in the scale.

                                                         9
    with obtaining non-core funding typically strained banks’ profitability because non-core
    funding is a higher cost funding source. Similarly, over-reliance on mortgage loan sales to
    the secondary market is a risky strategy because demand can diminish or disappear based on
    changing economic conditions. The evaporation of secondary market demand for mortgage
    asset sales during the financial crisis forced some banks to hold loans that management
    intended to sell. Certain banks experienced significant losses on loans that could not be sold
    as a result of declines in the residential real estate market. We describe three of these
    situations in Appendix 1.

4. Ineffective Internal Controls and Poor Risk Management – As outlined in Appendix 3,
   Table 1, 16 of the 20 failed banks included in our analysis had significant risk management
   and internal control weaknesses. Appendix 1 describes three examples where internal
   control weaknesses contributed to the failure. In each of the three examples, the applicable
   Board of Directors and management did not assure that their bank’s risk management
   capabilities and internal controls kept pace with the bank’s rapid growth and increasingly
   complex operations. These weaknesses provided an early indication of Board of Directors
   and management weaknesses and foreshadowed an increasing probability for failure at these
   institutions.

5. Compensation Incentives May Encourage Inappropriate Risk Taking – Three failures
   appeared to establish a connection between compensation program incentives and risk-
   taking. 7 In one failure, it appeared that a dominant Chief Executive Officer (CEO) pursued
   an aggressive and risky growth strategy that resulted in a high concentration in CLD loans
   because, in part, the bank’s growth rate contributed to the size of the CEO’s annual incentive
   compensation. The bank’s rapid growth rates during the CEO’s tenure appeared to establish
   a possible connection between compensation incentives and the bank’s growth strategy. In
   the other two failures, compensation programs appeared to influence loan officer behavior.
   In those failures, loan officer compensation programs contained incentives for loan
   production, but did not include similar incentives related to loan quality. These institutions
   experienced substantial growth, in part, because of loosened underwriting standards, which
   resulted in the banks originating low quality loans.




        7
           On March 30, 2011, the Federal Reserve Board announced the interagency promulgation of a proposed
rule concerning incentive compensation arrangements at covered financial institutions. The proposed rule would
apply to certain institutions, including SMBs, with more than $1 billion in total assets. In general, the proposal
encourages covered institutions to design incentive compensation programs in a manner that appropriately accounts
for risk. In addition, the proposal generally prohibits incentive compensation that encourages inappropriate risk-
taking.

                                                        10
V.    Observations Regarding Federal Reserve Supervision of Failed SMBs

1. Stronger Supervisory Action Sooner – We noted in our 20 reports that examiners often
   identified many of the SMBs’ key safety and soundness risks, but did not take sufficient
   supervisory action in a timely manner to compel the Board of Directors and management to
   mitigate those risks. In many instances, supervisors eventually concluded that a supervisory
   action was necessary, but that conclusion came too late to reverse the bank’s deteriorating
   condition. In most failures, it was not possible to determine the degree to which earlier or
   more forceful supervisory responses might have affected a bank’s deterioration or the
   ultimate cost to the DIF.

2. Different Approaches to Aggressive Growth Strategies – We observed different
   supervisory approaches for SMBs that pursued aggressive growth strategies. In specific
   situations, examiners did not intervene or question the advisability of management’s
   continued portfolio growth despite significant risks associated with the already concentrated
   loan portfolios. In other instances, the examination teams questioned the advisability of
   additional loan portfolio growth and requested that management consider refraining from
   additional lending activities. Appendix 1 notes five failures that exemplify these two
   different approaches.

3. Board of Directors and Management Accountability for Managing the Risks Associated
   with New Activities and Implementing Required Corrective Actions – Many of the
   supervisory histories associated with the failures that we reviewed illustrated the need to
   reinforce supervisory fundamentals and demonstrated the importance of examination teams
   (1) assuring that the Board of Directors and management appropriately mitigate the risks
   associated with strategic transitions or new business activities, (2) using escalating
   supervisory actions when appropriate, and (3) assuring that the Board of Directors and
   management timely implement required corrective actions. Our examples also highlight the
   need for supervisors to ensure that CAMELS composite and component ratings are consistent
   with narrative examination comments to clearly convey the need for urgent action when
   appropriate. Appendix 1 contains five examples of these situations.

4. Limitations of PCA Assessments – Specific failures revealed the limitations of PCA’s
   quantitative assessments of a bank’s capital position. 8 As discussed in Appendix 1, in three
   instances, specific SMBs remained well capitalized under PCA guidelines, even though the
   applicable examination team noted that the institution’s capital position did not support the
   bank’s risk profile prior to declines in the bank’s PCA status. 9 The contrast highlights how
   significantly PCA quantitative assessments can lag examiners’ more subjective assessment of
   capital in relation to a bank’s risk profile.


         8
           In June 2011, the Government Accountability Office released a study on PCA that contained
recommended actions for the federal banking agencies.
         9
           The Federal Deposit Insurance Corporation Improvement Act of 1991 established the PCA standards for
undercapitalized banks. Based on their level of capitalization, banks are designated as well capitalized, adequately
capitalized, undercapitalized, significantly undercapitalized, or critically undercapitalized. A bank’s capitalization
designation is based on its total risk-based capital ratio, tier 1 risk-based capital ratio, and leverage ratio.

                                                          11
   5. Declines in Financial Performance as a Prerequisite to Aggressive Supervisory Action –
      As mentioned above, prior to and early in the financial crisis, examiners acknowledged and
      identified many of the risks that ultimately caused specific SMBs to fail, but we found certain
      circumstances where examiners did not take aggressive supervisory action until the
      institution’s financial performance declined. The deteriorating economic conditions during
      the financial crisis demonstrated how quickly specific risks can impact a bank’s condition,
      making it critical that such issues are addressed timely. This supervisory risk indicates the
      need for “forward-looking” examinations with clear and forceful communication in more
      stable economic periods. We highlight three examples of this observation in Appendix 1.

   6. Limitations of SR Letter 07-01, Interagency Guidance on Concentrations in Commercial
      Real Estate – Given the prominent role that CRE (including CLD) concentrations played in
      these SMB failures, we solicited Reserve Bank staff opinions concerning the effectiveness of
      SR Letter 07-01. In general, examiners perceived the guidance to be “too little, too late.”
      Many examiners suggested that the guidance might have been more effective if issued sooner
      and that more detailed guidance on the topic would be beneficial. Examiners mentioned that
      many institutions did not quickly adopt the risk management practices outlined in the
      guidance prior to the onset of the financial crisis. Appendix 1 contains further discussion of
      this topic.

VI.      Recommendations

   Based on our mandate to assess the bank failures to determine how losses to the DIF might be
   avoided in the future and our assessment of the emerging themes from the failures reviewed, we
   recommend the following actions:

   1. We recommend that the Director of the Division of Banking Supervision and
      Regulation (BS&R) supplement current examiner training programs with case studies
      from the recent failures.

         Based on our cause of failure and supervisory observations, we believe that case studies
         involving the recent SMB failures would provide examiners the opportunity to assess
         different supervisory approaches and the associated implications and outcomes. We also
         noted the need for examiner training sessions designed to reinforce the importance of (a)
         issuing CAMELS composite and component ratings consistent with examination comments,
         (b) escalating supervisory actions based on management’s failure to resolve examination
         comments, (c) assuring that Boards of Directors and management implement appropriate
         controls and risk management practices for new business activities, (d) addressing significant
         deviations from previously submitted and approved business plans, and (e) following
         regulatory and examination guidance and seeking clarifications as needed.

      2. We recommend that the Director of the Division of BS&R develop standard
         examination procedures to evaluate compensation arrangements.

         In our opinion, BS&R should develop standard examination procedures to review incentive
         compensation arrangements for key personnel, including loan origination staff, of all SMBs

                                                     12
       (regardless of total asset size) consistent with the risk-focused examination approach.
       According to the Commercial Bank Examination Manual (CBEM), the risk-focused
       examination approach seeks to ensure that institutions have in place the processes necessary
       to identify, measure, monitor, and control risk exposures. We believe that examination
       procedures can be tailored to this approach to evaluate incentive compensation programs for
       executive management and key risk-taking personnel, such as loan origination staff, and
       assure the alignment of incentives to the safe and sound operation of the institution.
       Executing the procedures should provide examiners with an understanding of the potential
       influence of incentive compensation on strategic and risk-taking activities.

  3. We recommend that the Director of BS&R provide supplementary guidance on CRE
     concentrations.

       Based on examiner feedback and our analysis, we recommend that the Director of BS&R
       provide supplementary guidance to SR Letter 07-01. In our opinion, updated guidance
       should, at a minimum, (1) address the unique risks associated with CLD lending and
       appropriate and effective risk management practices, and (2) identify specific practices that
       proved effective in managing concentrations during the financial crisis.

VII.    Matters for Consideration

  1. We suggest that the Director of BS&R continue to work with the other federal banking
     agencies to identify opportunities to enhance PCA.

       It is our understanding that an interagency effort is currently assessing enhancements to PCA.
       As part of this effort, BS&R should consider, in conjunction with the other federal banking
       agencies, whether PCA assessments of bank capital can be improved to (1) eliminate the
       disconnect that may arise between a specific bank’s PCA status and examiners’ subjective
       assessment of capital or (2) create a standard supervisory approach when such a disconnect
       arises. We also suggest that BS&R consider whether PCA requirements should be amended
       to provide examiners with the ability to restrict a bank’s business activities upon concluding
       that the bank’s capital does not support its risk profile.

  2. We suggest that the Director of BS&R define the appropriate supervisory response for
     highly concentrated SMBs that continue to pursue aggressive growth strategies.

       As we mentioned above, we observed that examiners followed different approaches to
       addressing highly concentrated institutions that sought further growth. We encourage BS&R
       to resolve the following policy questions related to the supervision of highly concentrated
       SMBs that continue to pursue an aggressive growth strategy: (1) What is the appropriate role
       of the examination staff in questioning the advisability of management’s aggressive growth
       strategy? and (2) Under what circumstances, if any, may supervisors intervene to request or
       require that a bank refrain from pursuing a strategy that will increase a bank’s already
       heightened risk profile?




                                                   13
     3. We suggest that the Director of BS&R encourage and take appropriate steps to
        implement a supervisory approach that requires strong and consistent supervisory
        action during stable economic periods.

        We believe that the Director of BS&R should encourage and take appropriate steps to
        implement a supervisory approach that addresses significant management, credit risk
        management, and internal control weaknesses whenever those issues arise notwithstanding a
        bank’s financial condition and results. For example, in our First Georgia report, we
        referenced statements by Federal Reserve Board officials concerning the timing and
        forcefulness of supervisory efforts. These officials acknowledged that supervisors must have
        an even firmer resolve and provide clear and very forceful communication in “good times,”
        when risks appear low, losses or write downs have not yet been recognized, and “optimism
        abounds” because a bank’s financial results should not mitigate examiners’ willingness to
        take strong and consistent supervisory action.

VIII.    Analysis of Comments

     We provided our draft report to BS&R for review and comment. In a response included as
     Appendix 6, BS&R’s Deputy Director concurred with the general findings of the report and
     generally agreed with the report’s recommendations and matters for consideration.




                                                   14
Appendixes
Appendix 1 – Detailed Analysis Results

Causes of the Failures

1.   Aggressive Growth and Poor Strategic Decision-making

Below we provide excerpts from seven MLRs that illustrate poor strategic decisions in pursuit of
aggressive growth: (1) Michigan Heritage Bank (Michigan Heritage), (2) BankFirst, (3)
CapitalSouth, (4) Irwin Union Bank & Trust (IUBT), (5) Marco Community Bank (Marco), (6)
Barnes Banking Company (Barnes), and (7) Community Bank of Nevada (CBON).

Michigan Heritage

Michigan Heritage, headquartered in Farmington Hills, Michigan, focused on equipment lease
financing until 2002, when management transitioned to CRE lending, a new business activity for
the bank. Michigan Heritage faced challenges transitioning from equipment lease financing to
CRE lending because of significant turnover in senior lending officers and other staff. While the
bank attempted to stabilize the situation by replacing key lending staff during 2003, examiners
were only “guardedly optimistic” about the new lending team’s ability to obtain quality loans in
Michigan Heritage’s competitive market environment. Within three years, the bank experienced
rapid growth in its CRE lending activities and developed a CLD concentration of nearly 200
percent. Because of the subsequent deterioration of economic conditions in Southeast Michigan,
the bank experienced substantial losses on these loans. In 2007, the bank attempted to improve
its credit administration and credit risk management capabilities by overhauling its management
team. By 2008, CLD loans accounted for 63 percent of the bank’s loan charge-offs. Despite the
bank’s efforts to overhaul management and improve its risk management practices and internal
controls, the losses associated with these loans depleted capital and ultimately caused the bank to
fail in April 2009. This situation illustrates the importance of the Board of Directors and
management implementing a strong internal control and risk management framework prior to
engaging in a new business activity.

BankFirst

BankFirst became an SMB in 1997. At the time, the bank operated as a limited purpose credit
card bank engaged in nationwide subprime lending. In 2005, a bank holding company purchased
BankFirst, and new management transitioned the bank’s business activities to CRE lending after
selling the bank’s subprime credit card receivables to a third party vendor. Within two years,
management surpassed its projections for its commercial lending activities by approximately
$220 million, or 110 percent. These projections were previously discussed with regulators as
part of the application process associated with the strategic transition. The bank grew so quickly,
in part, because of its incentive compensation program that rewarded loan officers for
originations but did not contain similar incentives for loan quality. Further, BankFirst had not
made an effective transition to its new commercial lending activities due to pervasive internal
control weaknesses. In this failure, the pace of growth resulted in a CRE concentration that
ultimately caused the failure as economic conditions deteriorated. Among other things, this
closure demonstrates poor strategic decision-making since management pursued a new business

                                                17
Appendix 1 – (continued)
activity without aligning the incentives in key compensation programs to the safe and sound
operation of the institution or implementing the internal controls necessary to manage a new
business activity.

CapitalSouth

CapitalSouth became an SMB in 1978. The bank’s primary business strategy involved lending
to small- and medium-sized businesses. In 2003, CapitalSouth embarked upon an expansion
strategy to grow its traditional business lending activities, including CRE lending, and acquire
other institutions. Between 2005 and 2007, the bank’s loan portfolio more than doubled from
$240 million to $644 million, in part, because CapitalSouth acquired a federal savings
association (thrift) and its mortgage subsidiary in 2007. The bank’s CRE and CLD
concentrations and the losses associated with those loans contributed to the failure, and the thrift
acquisition also contributed to the failure. As part of the application related to the acquisition,
CapitalSouth’s management indicated that the thrift did not engage in subprime lending
activities. However, subsequent examinations contradicted management’s assertion concerning
the scope of the thrift’s activities. The thrift, through a mortgage subsidiary, did engage in
subprime lending activities, which were heavily concentrated in the state of Florida. Losses
associated with the thrift’s loans hastened the pace of CapitalSouth’s failure. This failure
demonstrates poor strategic decision-making by the Board of Directors and management, since
the bank acquired another institution without fully understanding the scope of the institution’s
activities and the risks associated with those activities.

IUBT

IUBT was founded in 1871 and became an SMB in 1997. It conducted commercial lending
activities in three states. The 2001 to 2002 time frame marked a significant period of change for
IUBT as it transitioned from a community bank, to a large banking organization engaged in
consumer and commercial lending activities nationwide. In 2001, Irwin Home Equity (IHE),
which conducted consumer lending activities on a nationwide basis, became a nonbank
subsidiary of IUBT. In 2002, IUBT added Irwin Mortgage Corporation (IMC) as a nonbank
subsidiary involved in mortgage banking activities nationwide. These transitions and the
resulting growth within these businesses helped IUBT to nearly triple its total assets to more than
$6 billion by year-end 2005.

IHE and IMC pursued a risky “originate-to-distribute” business model that relied on the bank’s
ability to originate loans and sell them in the secondary mortgage market to generate the funds
necessary for further lending. This strategy presumed that secondary market demand for asset
sales would not disappear. In addition to this risk, IHE engaged in risky product offerings,
including refinance and debt consolidation loans with a maximum combined loan-to-value ratio
(CLTV) ratio of 125 percent. The subsidiary also offered this product to subprime customers.
Significant concentrations developed in these high-risk product offerings, and by 2005, 56
percent of the IHE portfolio consisted of 125 percent CLTV ratio loans. When secondary market
demand for the subsidiary’s loans diminished, the bank held these assets in its portfolio, and the

                                                 18
Appendix 1 – (continued)
losses associated with these products contributed to the bank’s failure. This situation highlights
the risks associated with relying on a risky business strategy and high risk product offerings to
achieve growth.

Marco

Marco, chartered as a state nonmember bank in August 2003, became an SMB in December
2003. The bank’s strategy consisted of meeting the mortgage needs of retirees and small to mid-
size business lending. Between 2003 and 2005, the bank’s loan portfolio grew 633 percent to
$132.8 million—more than double management’s planned growth of 287 percent. The bank
developed CLD and home equity loan concentrations well in excess of peer institutions because
of this growth. When the bank’s loan portfolio growth peaked in 2005, management turned to
third party loan pool purchases in pursuit of further growth. Despite the fact that the bank’s
purchases ultimately represented $14 million or 98 percent of the bank’s capital, the Board of
Directors and management did not thoroughly conduct due diligence of the loan pools and failed
to comprehensively review (1) the delinquency status of the underlying loans, (2) the experience
and qualifications of the borrowers, and (3) the quality of the third party’s underwriting. Marco
ultimately recognized more than $7 million in loan losses from the loan pools. Examiners
attributed these losses to Marco’s failure to identify and consider that the third party lender
allowed borrowers to provide minimal cash equity and did not thoroughly assess borrowers’
repayment capacity. The losses on these loan pools depleted the bank’s capital and ultimately
contributed to its failure. This failure demonstrates poor strategic decision-making by the Board
of Directors and management, since the bank attempted to maintain its growth without fully
understanding the risks associated with its loan pool purchases.

Barnes

Barnes, a community bank headquartered in Kaysville, Utah, was founded in 1891, and for the
next 100 years was a single branch office bank with assets that gradually increased but stayed
under $100 million. During the 1990s, Barnes began expanding its branch office network, and,
by 1999, it had assets totaling over $340 million. By 2005, the bank had expanded to 10 branch
offices in Utah, primarily within the Salt Lake City and Ogden metropolitan areas. In the 2000s,
Barnes pursued a growth strategy focused on CRE lending—specifically residential CLD
lending—and the bank’s total assets increased to nearly $1.0 billion by 2008. Barnes failed
because its Board of Directors and management did not effectively control the risks associated
with the bank’s aggressive growth strategy that led to a CRE loan concentration, particularly in
CLD loans.

In 2007, examiners stated that “the greatest regulatory concern [at Barnes] is the rapid growth in
the CRE portfolio during a time of pronounced economic weaknesses in this market segment.”
Examiners noted that Barnes’ CRE concentration had reached 473 percent of capital, largely as a
result of a 68 percent increase in the CLD portfolio. Examiners expressed explicit concern over
the “disconnect” between Barnes’ Board of Directors’ vote to expand CRE lending limits, while
simultaneously acknowledging that the CRE market was deteriorating. Significant growth in

                                                19
Appendix 1 – (continued)
classified assets in 2008 and 2009 caused the bank to experience sizeable losses, which
ultimately depleted capital and caused the bank’s failure. This failure highlights poor strategic
decision-making as the bank’s Board of Directors expanded previously established limits to
allow for further lending despite signs of market downturn.

CBON

CBON, headquartered in Las Vegas, Nevada, also failed because of poor strategic decision-
making based on management’s optimism. From 2001 through 2008, CBON’s average annual
asset growth rate was approximately 27 percent, compared to its peers’ average of 11 percent.
Following this extended growth period, CBON’s management maintained what examiners
described as a “lethal sense of optimism” regarding the resilience of the local Las Vegas market.
According to examiners, the bank’s Board of Directors and management were confident that the
bank’s underwriting practices, risk management efforts, and historically low loss history would
sustain its sound financial position. Accordingly, management did not increase the level of the
allowance for loan and leases losses (ALLL) commensurate with increases in the bank’s
classified assets. This poor strategic decision-making contributed to the bank’s failure. As a
result of a target examination that began in October 2008, examiners determined that CBON’s
ALLL was insufficient due to the exponential growth of the bank’s classified assets. The Federal
Reserve Bank of San Francisco (FRB San Francisco) required CBON to increase its provision
expense by more than 4,000 percent from $2.6 million as of year-end 2007, to $118.5 million for
year-end 2008. The magnitude of this provision expense eliminated earnings, depleted the
bank’s capital, and contributed to the bank’s failure. This failure illustrates how a previous
period of sustained growth can cloud the Board of Directors’ and management’s perceptions.

2.   Asset Concentrations in CLD Loans Correlated to Likelihood to Fail

Asset concentrations contributed to the cause for each failure we reviewed. We conducted
supplemental research to better understand this common characteristic. We learned more about
concentrations by comparing concentration levels and other key performance measures for the
highest CAMELS rated institutions during the financial crisis to the failed banks. We also
analyzed the highest CRE and CLD concentrated SMBs prior to the financial crisis. Finally, we
sought to understand SMB improvement stories where specific banks with CAMELS 4 and 5
composite ratings became 3 rated institutions.

CRE or CLD Concentration Magnitude as an Indicator of Likelihood to Fail

SR Letter 07-01 indicates that CRE concentrations in excess of 300 percent of risk-based capital
and CLD concentrations that exceed 100 percent of risk-based capital may warrant heightened
scrutiny. Among the 426 SMBs that maintained a CAMELS 1 (strong) or 2 (satisfactory)
composite rating during the financial crisis, 19.4 percent of the institutions had CRE
concentrations above 300 percent while less than 10 percent of those institutions had CLD
concentrations above 100 percent. For the period between 2007 and 2010, the highest CAMELS
rated institutions that exceeded SR Letter 07-01’s CRE and CLD concentrations guidelines did

                                                20
Appendix 1 – (continued)
so by 30 and 36 percent, respectively. 10 By contrast, every failed bank exceeded SR Letter 07-
01’s tolerances for significant CRE or CLD concentrations prior to its eventual failure, and
certain institutions exceeded the thresholds by as much as 131 to 321 percent. 11 Other banks
failed with much lower variance levels—specific failed institutions exceeded the guidance for
CRE and CLD concentrations by only 16 percent and 54 percent, respectively. Among the failed
institutions we reviewed, CRE and CLD concentration levels varied significantly. CRE
concentrations ranged from 347 percent (Marco Community Bank) to 695 percent (Midwest
Bank and Trust). CLD concentrations also significantly exceeded peer group averages and
ranged from 154 percent (Midwest Bank and Trust) to 421 percent (Community Bank of West
Georgia). In our opinion, the variance from SR Letter 07-01’s threshold concentration levels for
CRE and CLD and the significant CRE and CLD concentration ranges among the failed banks
did not yield conclusive results concerning concentration magnitude as a reliable indicator of
likelihood to fail.

Supplemental Research on CRE and CLD Concentrations

These inconclusive results prompted our office to consider whether other factors might prove to
be more reliable indicators of a bank’s likelihood to fail. To analyze this matter, we examined
three distinct categories of SMBs, including (1) the top 25 SMBs based on CRE loans as a
percentage of risk-based capital as of June 30, 2007; (2) those SMBs that maintained a CAMELS
1 or 2 composite rating between December 31, 2007, and December 31, 2010; and (3) SMBs that
were considered to be in “troubled condition” because of a CAMELS composite 4 or 5 rating
between June 30, 2007, and June 30, 2010, that received an upgrade to a CAMELS composite 3
rating or better. 12 To conduct this supplemental research, we compiled UBPRs, surveillance
reports, and examination results data on the SMBs that met these criteria.

CLD Concentration Correlated to Likelihood to Fail

We identified the top 25 CRE loan concentrated SMBs prior to the on-set of the financial crisis
as of June 30, 2007, and determined that 4 of the top 5 concentrated CRE banks had not failed,
and only 7 of those 25 SMBs had failed. We interviewed BS&R officials to better understand
how and why the 18 SMBs withstood the financial crisis, which confirmed our initial impression
that the magnitude of a CRE concentration did not necessarily predetermine a failure. BS&R
attributed multiple SMBs’ resilience to low CLD loan levels.


         10
             The percentages represent a blended average of year-end data taken from the Uniform Bank Performance
Reports (UBPRs) from 2007 through 2010 for each of the highest rated institutions that exceeded SR letter 07-01’s
guidelines for CRE and CLD concentrations.
          11
             To assess these variances, we obtained CRE and CLD concentration information six quarters prior to the
applicable bank’s failure to minimize the impact of declining capital levels on the ratios. Our results are outlined in
Appendix 3, Table 2.
          12
             Section 225.71(d) of Regulation Y defines “troubled condition” for an SMB or bank holding company as
an institution that (i) has a composite rating of 4 or 5; (ii) is subject to a cease-and-desist order or a formal written
agreement that requires action to improve the institution’s financial condition, unless otherwise informed in writing
by the Federal Reserve; or (iii) is informed in writing by the Federal Reserve that it is in a troubled condition.

                                                           21
Appendix 1 – (continued)
We conducted further research on SMBs highly concentrated in CLD loans by identifying the top
25 CLD loan-concentrated banks prior to the financial crisis. Those institutions experienced a
higher failure rate than the top 25 CRE concentrated SMBs—58 percent versus 32 percent. 13
Further, every top 25 CRE concentrated SMB that eventually failed also appeared on the list of
top 25 CLD concentrated institutions. In our estimation, these results demonstrated a correlation
between high CLD concentrations and SMB failures. 14

We also attempted to identify other differentiating characteristics between SMBs that maintained
a CAMELS composite 1 or 2 rating from December 31, 2007, to December 31, 2010, and those
that failed. To conduct this supplemental research, we analyzed the following key indicators:
(1) average CRE and CLD loan concentrations, (2) capital strength via the tier 1 leverage ratio,
and (3) net non-core funding dependence ratio. We observed that 1 and 2 rated banks had an
average CRE loan concentration ranging from 175 to 189 percent and a CLD loan concentration
averaging between 31 to 44 percent. As mentioned above, these averages are well beneath the
CRE and CLD thresholds established in SR Letter 07-01 and the concentration averages of the
failed SMBs. Low concentration levels for these 1 and 2 rated SMBs likely reduced their
vulnerability to market downturns during the recent financial crisis.

We assessed the CAMELS 1 and 2 rated banks’ capital strength by focusing on their tier 1
leverage ratios. 15 The 1 and 2 rated banks’ tier 1 leverage ratios averaged between 10.6 to 11.1
percent during the financial crisis, which is more than double the well capitalized minimum of
5.0 percent. We also compared the highest rated banks’ net non-core funding dependence ratio
to the failed banks. The average net non-core funding dependence ratios for the sample of 1 or 2
rated SMBs ranged from -4.3 to 8.5 percent, which is significantly lower than the 32.6 to 39.5
percent dependence levels for the failed SMBs. 16 Over-reliance on non-core funding sources can
be a risky strategy since that funding may not be available in times of financial stress or adverse
changes in market conditions.

Finally, we identified 18 improvement stories involving CAMELS composite 4 or 5 rated
institutions that received upgrades to a 3 or better during the financial crisis. We sought to
understand how these institutions improved their overall condition during turbulent economic
conditions by discussing each institution with BS&R. Our discussions revealed that (1) specific
institutions received capital infusions, which improved the respective bank’s overall condition,

         13
             Six of the 14 SMBs that were highly concentrated in CLD loans that did not fail were either merged or
acquired. Three of the 18 highly concentrated CRE state member banks that did not fail were either merged or
acquired. We deducted merged or acquired banks from the respective list before calculating the failure rate based on
the remaining institutions. Accordingly, 11 out of 19 is the failure rate for CLD and 7 out of 22 is the failure rate for
CRE.
          14
             We sought to further support this point by analyzing the top 50 CRE and the top 50 CLD loan
concentrated institutions prior to the on-set of the financial crisis. There were five CRE and seven CLD additional
failures identified among this broader population. These additional failures support our conclusion concerning the
importance of CLD concentrations because the five CRE failures also appeared on the top 50 CLD list.
          15
             The tier 1 leverage ratio measures tier 1 capital in comparison to average total assets.
          16
             In this case, the negative net non-core funding ratio is a result of short-term investments exceeding non-
core funding sources.

                                                          22
Appendix 1 – (continued)
and (2) the Board of Directors’ and management’s receptiveness to change, including facilitating
third party investments, was important.

In summary, we found a 58 percent failure rate among the top 25 CLD concentrated banks as of
June 30, 2007, and determined that some of the highest CRE concentrated institutions remained
resilient during the crisis, in part, because of their low CLD levels. In addition, we determined
that every top 25 CRE concentrated SMB that eventually failed also appeared on the top 25 CLD
concentrated SMBs. These facts led us to conclude that a high CLD concentration level proved
to be a more reliable indicator of a potential failure during the recent financial crisis than a high
CRE concentration. Further, our analysis of the CAMELS 1 and 2 rated banks also revealed
some key differentiating characteristics between those institutions and the failed banks—lower
CRE and CLD concentration levels, strong capital positions, and minimal dependence on non-
core funding.

3.   Reliance on Certain Specific Funding Sources

As outlined in the summary Table 1 in Appendix 3, 10 failures involved banks relying on non-
core funding or another primary funding source as a contributing cause. Eight of the 10 banks
relied on non-core funding sources to foster growth. Two banks relied on access to the
secondary mortgage market to sell loans to transfer risk and generate the funds necessary to
support additional lending activities. The three failures described below demonstrate the risks
associated with reliance on specific funding sources.

Midwest Bank & Trust

In 1959, Midwest Bank and Trust Company was established as a state chartered bank in
Elmwood Park, Illinois, to provide community and commercial banking services to individuals
and businesses in the western suburbs of Chicago. In July 1995, Midwest became an SMB
supervised by the Federal Reserve Bank of Chicago. Midwest grew to become a large
community bank that focused on CRE lending in the Chicago metropolitan area. In 2004 and
2005, the bank overhauled its management, and the new management team pursued an
aggressive growth strategy while attempting to resolve some of the bank’s traditional
weaknesses. One of these traditional weaknesses involved a lack of diversity among the bank’s
funding sources. New management sought to address this weakness by raising core deposits, but
struggled to do so because of the competitive Chicago market for deposit customers. As a result
of this challenge, new management increasingly relied on non-core funding to pursue its growth
objectives. Midwest’s non-core funding dependence ratio increased significantly between 2005
and 2007 and remained well in excess of its peers from 2005 through 2008. This dependence on
non-core funding contributed to a consistent decline in the bank’s net interest margin, which
forced bank management to ultimately rely on holding company capital support to sustain
operations. When the holding company could no longer provide capital support, the bank failed
because of the mounting losses in its CRE and CLD loan portfolios.




                                                 23
Appendix 1 – (continued)
IUBT

As discussed on page 18, IUBT relied on an “originate-to-distribute” strategy for the consumer
lending activities conducted in its nonbank subsidiaries. This strategy involved originating home
mortgages and home equity loans to be sold in the secondary market. Lenders pursue this
originate-to-distribute strategy to (1) package and sell their loans to avoid the interest rate risk
associated with holding loans to maturity, and (2) generate the funding necessary to support
additional mortgage origination activities. In terms of liquidity, the business model and strategy
provides an opportunity for self-sufficiency, presuming uninterrupted secondary market demand
for mortgage loans. If the secondary market demand for the loans evaporates, the funding
necessary to generate additional loans is eliminated and the bank must hold the loans in its
portfolio. During the financial crisis, secondary market demand evaporated, and IUBT
experienced substantial asset quality deterioration on the loans in its portfolio, which ultimately
contributed to IUBT’s failure.

SolutionsBank (Solutions)

Solutions, headquartered in Overland Park, Kansas, began operations in 1881 as a national bank
focused on agricultural lending in south-central Kansas. In February 2002, the bank became a
state chartered member bank. In 2004, Solutions expanded the scope of its business activities to
include commercial lending to businesses in the Kansas City metropolitan area and regional real
estate developers. Solutions failed because its Board of Directors and management did not
control the risks associated with an aggressive growth strategy funded by non-core deposit
sources. The bank’s net non-core funding dependence ratio consistently exceeded its peer group
average. Solutions funded its loan growth primarily with high-rate certificates of deposit (CDs)
over $100,000, supplemented by Federal Home Loan Bank borrowings and brokered deposits.
Reliance on non-core funding from the CDs and brokered deposits is considered a risky strategy
that can have a significant negative effect on liquidity, since the associated customers may have
no other relationship with the institution and merely seek the highest yielding investment.

The bank’s growth strategy resulted in a significant loan concentration in CRE, including CLD,
that made the bank particularly vulnerable to real estate market deterioration. When economic
conditions declined, the bank experienced significant losses, which depleted capital. Solutions’
declining PCA designation resulted in brokered deposit restrictions and limitations on the interest
rates it could pay to depositors. These restrictions tightened the bank’s liquidity. Following a PCA
directive requiring the bank to raise capital, Solutions experienced significant net deposit
withdrawals, which further tightened the bank’s already strained liquidity and ultimately
contributed to the failure.

4.   Ineffective Internal Controls and Poor Risk Management

Risk management and internal control deficiencies proved to be a common characteristic among
many of the failed SMBs. Common weaknesses observed involved loan underwriting, credit



                                                 24
Appendix 1 – (continued)
administration, or loan review. At certain failed banks, pervasive control deficiencies
foreshadowed the institutions’ problems. We provide three illustrative examples below.

Elmwood

The Bank of Elmwood, a community bank headquartered in Racine, Wisconsin, commenced
operations as a Wisconsin state chartered nonmember bank in December 1960, with a focus on
serving the needs of middle-income to low-income households. In August 1986, Elmwood
became an SMB. Elmwood failed because its Board of Directors and management pursued a
risky loan growth strategy that featured new loan products and out-of-market lending without
developing adequate credit risk management controls. In 2004, Elmwood’s Board of Directors
and management implemented a new loan growth strategy to improve marginal earnings. The
new loan strategy focused on originating and holding one- to four-family residential loans and
purchasing out-of-market CRE loan participations. During the 2004 to 2007 period, Elmwood
opened three loan production offices—two in Wisconsin cities outside of the bank’s market area,
and one in Scottsdale, Arizona. In addition, Elmwood developed several loan programs to attract
investors within its local market area interested in purchasing or building non-owner occupied
properties with little or no down payment.

Examiners noted “a lax credit culture at the bank” that ultimately contributed to the bank’s
failure. Supervisors observed weaknesses related to exceptions to the bank’s underwriting
standards during the loan origination process. In addition, an ineffective loan monitoring system
compounded the bank’s credit risk management deficiencies. The bank was unable to evaluate
the continued creditworthiness of commercial borrowers because current financial information
often was lacking. Further, Elmwood did not maintain documentation supporting the sufficiency
of the bank’s collateral and failed to adequately monitor its CRE participation loans. These
deficiencies ultimately resulted in low quality loans and substantial loan losses, which
contributed to the bank’s failure.

BankFirst

As discussed above, BankFirst transitioned from limited purpose credit card lending to
commercial lending activities after being acquired in 2005. BankFirst failed because its Board of
Directors and management did not establish a corporate governance and oversight framework to
control the risks associated with its aggressive loan growth and high concentration in CRE loans.
The lack of effective credit risk management controls resulted in a large volume of poorly
underwritten CRE loans that were originated within an 18-month period. BankFirst had
pervasive internal control deficiencies, and bank management’s inability to identify and address
loan portfolio weaknesses led to asset quality deterioration and significant losses.

In terms of corporate governance, BankFirst’s President did not oversee and control the bank’s
lending activities because its Chief Credit Officer reported to the bank holding company’s Chief
Operating Officer, rather than the bank President. In addition, examiners noted extensive sharing


                                               25
Appendix 1 – (continued)
of employees between BankFirst and a nonbank affiliate, which made it difficult to determine
which entity performed which functions.

In addition to organizational design weaknesses, BankFirst’s credit administration program
contained significant and pervasive control deficiencies. For example, BankFirst’s credit
administration program did not include an independent loan review function to provide an
impartial assessment of loan quality. In general, an independent loan review function can be
essential to a bank’s safety and soundness, especially for those banks engaged in risky lending
activities. In addition, BankFirst’s loan risk rating process consistently produced unreliable
results, and examiners routinely downgraded management’s loan ratings. Further, the full extent
of the bank’s loan portfolio weaknesses was masked by the bank’s use of (1) automatic maturity
extensions without fully assessing the underlying loan’s creditworthiness and (2) interest
reserves on speculative land loans. These weaknesses and deficiencies fostered an uncontrolled
operating environment that helped to facilitate the unfettered loan portfolio growth that
ultimately caused the bank to fail.

IUBT

At IUBT, examiners determined in 2002 that risk management weaknesses and other internal
control deficiencies warranted transition to a continuous supervision process. The continuous
supervision program revealed various key weaknesses in the bank’s internal control and
corporate control functions, including (1) the Board of Directors’ and management’s inability to
resolve previously noted control weaknesses; (2) key strategic changes that had occurred without
proper evidence of analysis by management or communication to the Board of Directors; (3) the
internal audit program not having kept pace with the size and complexity of the consolidated
organization and internal audit’s tendency to rely on management’s assertions without
conducting testing; and (4) systemic and recurring violations of consumer lending laws at key
consumer lending subsidiaries. 17 The pervasive nature of these weaknesses, in part, revealed the
Board of Directors’ and management’s difficulties identifying, monitoring, and managing the
risks associated with operating a large, geographically dispersed banking organization engaged
in multiple businesses. These weaknesses served as early warning signs concerning the bank’s
ability to effectively manage its risk.

5.    Compensation Incentives May Encourage Inappropriate Risk Taking

Three failures appeared to demonstrate that compensation incentives may influence
management’s decision-making and employee risk-taking activities. The other 17 failures did
not address compensation in the examination reports; therefore, this potential correlation could
not be assessed.



        17
           IUBT’s complex banking organization included two consumer finance subsidiaries and a commercial
finance subsidiary that housed three additional subsidiaries. Each of these subsidiaries had its own Board of
Directors and management.

                                                       26
Appendix 1 – (continued)
Orion Bank

Orion was a community bank with $2.7 billion in total assets. The bank had a dominant CEO,
who may have pursued an aggressive growth strategy, in part, because the bank’s earnings
growth rate affected the size of the CEO’s annual bonus. This provided an “incentive to delay
recognition of problem credits [loans] and associated provisions.” During the CEO’s tenure,
Orion experienced significant growth. Total CRE loans more than doubled from $722.3 million
in 2004, to $1.49 billion in 2006, with CLD loans increasing from $481 million to $1 billion
during the same period. In our opinion, this significant growth appeared to establish a possible
correlation between the bank’s strategy and the CEO’s incentive compensation. Prior to the
failure, FRB Atlanta issued a PCA Order to remove the CEO. He was also indicted on a series
of criminal charges related to a conspiracy to engage in a series of fraudulent transactions to
augment the bank’s declining capital.

Elmwood and BankFirst

In two other failures, Elmwood and BankFirst, compensation programs appeared to influence
behavior at the loan officer level. In both failures, loan officer compensation programs contained
incentives for generating new loans, but lacked any incentives to ensure the quality of the loans.
In Elmwood, the bank experienced significant growth in its commercial lending and one- to four-
family residential loan businesses, in part, because of these incentives. According to examiners,
BankFirst’s compensation program rewarded loan officers for generating fee income on loans
they originated, but did not contain incentives to ensure that the bank made safe and sound loans.
The bank’s loan portfolio increased 1,179 percent from $36.6 million as of March 31, 2005, to
$431.8 million by year-end 2006. The loan portfolio growth included numerous borrowers who
eventually proved to be less than creditworthy. Both of these institutions experienced substantial
loan portfolio growth, in part, because of inappropriate incentives that emphasized loan
origination activity more than prudent underwriting.

Supervisory Observations

1.    Stronger Supervisory Action Sooner

In a January 2011 report issued by the Financial Crisis Inquiry Commission, Richard
Spillenkothen, former Director of BS&R from 1991-2006, discussed the division’s approach to
supervisory action during his tenure. The report quoted former Director Spillenkothen as stating
that “supervisors understood that forceful and proactive supervision, especially early intervention
before management weaknesses were reflected in poor financial performance might be viewed as
i) overly-intrusive, burdensome, and heavy handed, ii) an undesirable constraint on credit
availability, or iii) inconsistent with the Fed’s public posture.” 18 Each of our reports identified


        18
          According to the report, the quote originated from a memorandum submitted to the Financial Crisis
Inquiry Commission.

                                                       27
Appendix 1 – (continued)
the need for stronger supervisory action to occur sooner. We provide four illustrative examples
of situations where earlier and stronger supervisory action was necessary.

Barnes

Supervisors had multiple opportunities to take forceful supervisory action prior to Barnes’ failure
in January 2010. The bank continued to originate CLD loans in 2007 and 2008, despite apparent
weaknesses in Utah’s real estate market and economy. The Board of Directors’ and
management’s failure to effectively manage the resulting credit risk, in conjunction with
declining market conditions, led to rapid asset quality deterioration.

Circumstances noted during a 2007 full scope examination, including repeated regulatory
criticisms, declining market trends, and continuing growth of Barnes’ CLD loan portfolio,
provided FRB San Francisco with an opportunity to pursue earlier, more forceful supervisory
action. This examination resulted in a CAMELS component rating downgrade for sensitivity
only, even though the examination report criticized Barnes’ credit risk management, CRE
concentrations monitoring, ALLL methodology, and other critically important control processes.
Additionally, examiners expressed concern over Barnes’ aggressive growth in CRE lending
despite evidence of “pronounced economic weaknesses” within that market segment. Examiners
cautioned that “continued inaction” by the bank to resolve prior recommendations reflected
poorly on the quality of the Board of Directors’ oversight and might result in additional
supervisory oversight or action. Our report concluded that these findings warranted stronger
supervisory action such as downgrading CAMELS ratings or executing an informal enforcement
action.

A June 2008 credit risk target examination also provided an opportunity for FRB San Francisco
to pursue earlier, more forceful supervisory action. The target examination provided strong
evidence that Barnes’ risk profile and financial condition had significantly changed.
Additionally, examiners noted repeat criticisms regarding Barnes’ credit risk management.
While FRB San Francisco subsequently performed a separate ratings assessment and
downgraded several CAMELS ratings, the target examination did not result in an enforcement
action. Following a subsequent full scope examination, examiners executed a Written
Agreement with the bank in May 2009 because of an “excessive number of repeat criticisms” as
well as unsafe and unsound banking practices. The bank failed in January 2010.

IUBT

Prior to IUBT’s failure, FRB Chicago took two informal supervisory actions—in the form of
Board of Directors’ resolutions—against the bank based on the results of an examination
conducted in 2001. The first resolution (Resolution 1) required the bank to maintain a total risk-
based capital ratio of 12 percent, which exceeds the minimum requirement for well capitalized
banks. The second resolution (Resolution 2) required a series of control enhancements
concerning liquidity risk management, market risk management, model validation, compliance
with affiliate transaction restrictions, and corporate governance. Because of the weaknesses

                                                28
Appendix 1 – (continued)
observed during this examination, FRB Chicago transitioned the bank to an informal continuous
supervision program in 2002, which was formalized in 2003.

Examinations in 2002 revealed extensive weaknesses in two of the bank’s key corporate control
functions—internal audit and compliance. The bank’s internal audit program had not kept pace
with the size and complexity of the consolidated organization. Examiners raised specific
concerns about internal audit’s reliance on management’s assertions without conducting testing.
IUBT’s Compliance Function also contained serious deficiencies. An August 2002 compliance
and Community Reinvestment Act examination of IUBT and a subsidiary revealed “systemic”
violations of various consumer banking laws applicable to mortgage lending. Because of these
weaknesses, examiners encouraged the Board of Directors to adopt a third resolution (Resolution
3) consisting of the risk management requirements outlined in Resolution 2 and required
enhancements to the bank’s internal audit and compliance programs.

Between 2004 and 2005, IUBT had not fully resolved Resolutions 1 and 3. In a 2005 full scope
examination, FRB Chicago noted that 7 required actions and 53 expected actions remained open
on IUBT’s issues tracking log. Examiners encouraged management to assure that resolving
these issues became its highest priority. In June 2005, IUBT’s Board of Directors adopted an
amended resolution (Resolution 4) that included a model risk validation requirement and several
items related to consumer compliance program enhancements.

A 2006 full scope examination downgraded the CAMELS component rating for management
from a 2 to a 3. During this examination, FRB Chicago once again identified the need for IUBT
to strengthen risk management practices. Examiners noted that “the board and management
must establish a proactive risk management process that self identifies weaknesses, rather than
one that responds to regulatory scrutiny.” FRB Chicago emphasized that a supervisory action
would be implemented if the governance and risk management issues noted during the
examination were not “on the path to resolution by year-end.”

In terms of management’s progress towards resolving previously identified weaknesses,
examiners acknowledged management’s efforts but noted that 8 required actions and 51 expected
actions remained open. FRB Chicago indicated that this volume of internal control weaknesses
was “high relative to other financial institutions” supervised by FRB Chicago.

In 2007, a full scope examination revealed the Board of Directors’ failure to create an acceptable
compliance program that met the required actions in Resolution 4. As a result, FRB Chicago
placed IUBT under a Memorandum of Understanding (MOU) exclusively related to the
consumer compliance program.

Examiners noted that the Board of Directors and management had made some progress in
resolving the number of previously noted required and expected actions. In terms of the issues
that had been open since May 2006, 4 required actions and 29 expected actions had been
resolved. However, FRB Chicago noted 23 new issues during the examination, including 1
required action and 22 expected actions. In sum, there were 5 unresolved required actions and

                                                29
Appendix 1 – (continued)
44 unresolved expected actions. Resolution 4 remained in place because of management’s
failure to fully resolve a supervisory issue related to market risk management.

In February 2008, FRB Chicago downgraded IUBT’s CAMELS composite rating from a 3 to a
4, and every component rating received a downgrade or double downgrade. FRB Chicago noted
that the declining economic environment had clearly affected the organization’s condition, but
that the “strategic choices and the lack of risk mitigation actions to manage the institution
through this difficult environment have led to serious safety and soundness concerns.”
Examiners informed management that a supervisory action would be forthcoming.

The February 2008 examination attributed the bank’s condition to the Board of Directors’ and
management’s ineffectiveness. Examiners noted that the Board of Directors and management
had established and promoted inherently risky business models and strategies that laid the
foundations for the bank’s current problems. FRB Chicago also noted management’s failure to
proactively implement sound risk management practices that could prevent issues from
becoming regulatory concerns. Examiners observed many examples of management reacting to,
rather than anticipating and resolving, risk. This reactive management approach led FRB
Chicago to conclude that “poor Board [of Directors] and senior management oversight has led to
the institution’s current overall weak condition.”

On July 26, 2008, FRB Chicago and the Indiana Department of Financial Institutions entered into
an MOU with IUBT. The MOU obligated IUBT to (1) submit a plan to strengthen the Board of
Directors’ oversight; (2) conduct a management assessment for all senior bank management,
including all executive officers, to assess qualifications and prior performance; (3) submit a
liquidity/funds management plan; (4) submit a capital plan; (5) enhance the ALLL methodology;
and (6) submit a three-year strategic plan. Each of these required actions had a defined time
period for completion.

As a result of a 2008 asset quality target examination, FRB Chicago entered into a Written
Agreement with IUBT containing provisions similar to the MOU, but with adjusted timelines.
Following an asset quality visitation in August 2009, FRB Chicago placed the bank under a
Cease-and-Desist Order (C&D Order) for, among other things, failure to comply with Resolution
1’s capital maintenance requirements on September 15, 2009. The bank failed three days later.

IUBT’s failure demonstrates the importance of taking strong supervisory action to address
corporate governance, risk management, and internal control weaknesses, even in the absence of
declines in financial performance. When the Board of Director resolutions did not prompt
management to completely resolve the noted weakness as observed over a period of years, FRB
Chicago should have escalated the enforcement action to include defined time periods to
implement required actions. FRB Chicago eventually implemented an MOU with defined time
periods for action items in 2008 and escalated that informal enforcement action to formal
enforcement actions in 2008 and 2009 in the forms of a Written Agreement and C&D Order.
The timing of these aggressive supervisory actions proved to be too late as the bank did not
succeed in implementing the comprehensive changes contemplated by the Written Agreement.

                                              30
Appendix 1 – (continued)
This failure highlights the need for timely and escalating supervisory actions when informal
enforcement actions do not prompt the Board of Directors and management to resolve the
identified weaknesses over an extended time period.

Michigan Heritage
The Michigan Heritage failure represents another example in which examiners expressed
reservations about the bank’s strategy but did not take decisive supervisory action to address an
escalating risk profile. The bank failed because its Board of Directors and management did not
adequately control the risk associated with a high concentration in the CLD loan component of
the bank’s CRE portfolio. Michigan Heritage developed a CLD concentration after changing its
lending strategy from equipment lease financing to CRE and commercial and industrial loans.
The decline in southeast Michigan’s economy affected the bank’s local real estate market, and
the CLD loan portfolio experienced significant losses.

Michigan Heritage faced challenges transitioning from equipment lease financing to CRE
lending because of significant turnover in senior lending officers and other staff. While the bank
attempted to stabilize the situation by replacing key lending staff during 2003, examiners were
only “guardedly optimistic” about the new lending team’s ability to obtain quality loans in
Michigan Heritage's competitive market environment. This “guarded optimism” regarding the
bank’s strategic transition should have resulted in quick and decisive supervisory action
following any initial signs of potential issues.

FRB Chicago’s October 2007 examination noted a significant decline in the bank’s asset quality
because of increasing lay-offs in the auto industry and a declining local housing market. The
examination downgraded Michigan Heritage’s CAMELS composite rating to 3. According to
examiners, the bank’s loan portfolio experienced significant deterioration as classified assets
increased from $2.7 million to $12.5 million in a 12-month period. Examiners noted that future
prospects for improving Michigan Heritage’s financial condition and performance were “mixed”
because of the Michigan economy and the bank’s location in the northern suburbs of Detroit.
Employment losses and the fear of further losses were cited as factors in economic stagnation,
particularly in the local real estate market. In addition, examiners commented that protracted
weaknesses in the real estate markets could have a significant impact on potential portfolio
losses.

Nevertheless, FRB Chicago noted that the new management team hired in 2007 was comprised
of experienced risk managers who were (1) responsive to regulatory concerns, (2) working
aggressively to improve credit problems, and (3) implementing day-to-day changes in risk
analysis and control that would immediately benefit the bank. Accordingly, examiners decided
to give the new management team an opportunity to implement its program for improving the
bank’s condition. FRB Chicago planned an asset quality target examination to begin six months
after the October 2007 examination report was issued, and examiners noted that they would
revisit the possibility of issuing an enforcement action based on the target examination results.



                                                31
Appendix 1 – (continued)
The asset quality target examination that began in June 2008 resulted in a double downgrade of
the bank’s CAMELS composite rating from 3, assigned five months earlier, to 5. The
examination report issued in October 2008 highlighted further declines in asset quality and
attributed the bank’s problems to the stagnant local economy and distressed real estate market.
FRB Chicago acknowledged that Michigan Heritage’s condition continued to worsen even
though the new management team had implemented numerous corrective actions. Based on the
results of this examination, a formal enforcement action in the form of a Written Agreement was
executed on December 16, 2008. The bank failed five months later.

We believe that the circumstances FRB Chicago observed during the late 2007 to early 2008
time period provided an opportunity for a more forceful supervisory response.

CapitalSouth

CapitalSouth failed because its Board of Directors and management did not implement a credit
risk management infrastructure commensurate with its aggressive expansion strategy and high
concentration of CRE loans, including CLD loans. The bank pursued an aggressive expansion
strategy even though its modest earnings and capital position did not provide the buffer
necessary to withstand significant asset quality deterioration. The bank had a history of modest
earnings due to high funding costs. High overhead costs associated with CapitalSouth expanding
its branch network further strained the bank’s modest earnings. A 2005 examination report
highlighted the bank’s key risk—little margin for error and inability to withstand any significant
level of problem loans because of its modest earnings and growth strategy. After examiners
released the bank from an informal improvement plan in 2007 that was designed to address the
bank’s earnings weaknesses, capital planning, and credit risk management, supervisors reiterated
the bank’s limited margin for error in absorbing problem loans and loan losses. CapitalSouth
experienced significant asset quality deterioration in 2008, and a 2008 full scope examination
resulted in a C&D Order requiring enhanced Board of Directors and management oversight,
credit risk management practices, lending and credit administration policies, and loan review
policies. Following the order, the bank experienced further significant asset quality
deterioration, and the bank failed.

In this situation, examiners noted the bank’s key risk on multiple occasions but did not take
decisive supervisory action until it was too late. We believe that FRB Atlanta should have
stressed to CapitalSouth the need for solid earnings performance before the bank pursued its
risky growth strategy. In our opinion, examiners should have suggested that CapitalSouth
postpone its growth objectives until it enhanced its modest earnings and credit risk management
practices.

2.   Different Approaches to Supervising Banks Pursuing Aggressive Growth

We noted five failures that exemplify different supervisory approaches for banks that pursued
aggressive growth strategies—three situations where examiners questioned the advisability of
management’s strategy and two failures without similar intervention. While neither supervisory

                                               32
Appendix 1 – (continued)
approach proved particularly effective for any of the banks involved, the differing approaches
raise the issue of the appropriate role for supervisors when presented with similar circumstances
in the future. Specifically, we believe that BS&R should consider the following: (1) What is the
appropriate role of the examination staff in questioning the advisability of management’s
business strategy? (2) Under what circumstances, if any, is it appropriate for supervisors to
intervene to request or direct a bank to refrain from pursuing a particular strategy?

BankFirst

BankFirst experienced rapid loan growth during 2005 and 2006 as it transitioned from a limited
purpose credit card bank to a commercial bank. The bank’s loan portfolio increased 1,179
percent from $36.6 million as of March 31, 2005, to $431.8 million by year-end 2006.
Examiners noted that BankFirst’s rapid loan growth significantly exceeded management’s
projections. The bank’s business plan projected its annual loan portfolio to be $80 million in
2005, $205 million in 2006, and $373 million in 2007. BankFirst’s year-end loan portfolio
significantly exceeded annual projections in 2005 and 2006. In 2006, less than two years after it
began making loans as a commercial bank, BankFirst surpassed its $205 million projection by
approximately $220 million, or 110 percent. During a July 2006 full scope examination,
examiners did request that BankFirst curtail further loan growth to allow the loan portfolio to
season, so examiners could assess the risks associated with the bank’s strategy. Despite this, the
bank still failed because of its CRE concentration, credit risk management weaknesses, and
pervasive internal control deficiencies.

Elmwood

Elmwood failed because its Board of Directors and management pursued a risky loan growth
strategy that featured new loan products and out-of-market lending without developing adequate
credit risk management controls. The bank pursued this strategy even though its modest
earnings and capital position did not provide adequate support to withstand possible asset quality
deterioration.

When Elmwood initiated a loan growth strategy in 2004 to counter the bank’s historically
marginal earnings performance, examiners noted that the bank should control further loan
growth until it demonstrated that it could produce “sufficient retention of earnings to provide the
bank with adequate internal capital generation.” Despite the request and the bank’s failure to
resolve its earnings weaknesses, FRB Chicago observed in 2005 that the bank increased its loan
portfolio by about 30 percent over the previous two years by expanding into new geographical
markets and purchasing CRE loan participations to enhance income.

Barnes

The Barnes failure provides another example where examiners questioned the advisability of
additional loan portfolio growth. The bank continued to originate CLD loans in 2007 and 2008,
despite apparent weaknesses in Utah’s real estate market and economy. Examiners stated that

                                                33
Appendix 1 – (continued)
“the greatest regulatory concern [at Barnes] is the rapid growth in the CRE portfolio during a
time of pronounced economic weaknesses in this market segment.” Examiners noted that
Barnes’ CRE concentration had reached 473 percent of capital, largely as a result of a 68 percent
increase in the CLD portfolio. Examiners expressed explicit concern over the “disconnect”
between Barnes’ Board of Directors’ vote to expand CRE lending limits, while simultaneously
acknowledging that the CRE market was deteriorating. Examiners also urged management to re-
evaluate, fully document, obtain Board of Directors approval, and improve segmenting of CRE
concentration limits and sub-limits, which we believe was an attempt to have the bank reconsider
its growth strategy.

CBON

CBON provides an example where supervisors did not intervene to question the bank’s strategy
to continue lending despite initial signs of a local real estate market decline. A precipitous and
unprecedented deterioration of economic conditions within Las Vegas affected the local real
estate market, and the bank’s CLD portfolio experienced significant losses. Bank management
was optimistic that conditions would improve and, therefore, failed to identify and quantify the
magnitude of risk within its heavily concentrated portfolio.

In this failure, the bank pursued a strategy that involved concentrating the bank’s loan portfolio
in CRE and CLD. CBON's CRE loan concentration grew to 699 percent of total capital by 2001,
and it subsequently remained close to 600 percent through June 2008. In 2002, the Board of
Directors authorized a CRE loan limit of 900 percent of capital, pursuant to the bank’s
aggressive growth strategy, and by September of that year, CBON’s concentration ranked third
highest among SMBs under FRB San Francisco’s supervision. Despite a subsequent decrease of
the CRE loan limit to 700 percent, management committed to its strategy of developing a highly
concentrated CRE loan portfolio. Within its CRE loan portfolio, CBON’s concentration of CLD
loans rose from 270 percent of total capital in 2001, to approximately 400 percent by year-end
2006, where it remained through June 30, 2008. Despite the magnitude of these concentrations,
examiners did not question the advisability of the bank’s strategy in the years preceding the
failure.

Neighborhood Community Bank (Neighborhood)

Neighborhood Community Bank (Neighborhood)—a community bank in Newnan, Georgia—
opened on April 20, 2000, as a state nonmember bank serving metropolitan Atlanta.
Neighborhood became an SMB on April 13, 2001. Neighborhood failed because its Board of
Directors and management did not properly manage the risks associated with the bank’s
concentration in CLD loans tied to the residential real estate market. Neighborhood expanded its
CLD loan portfolio when the areas served by the bank experienced rapid growth. A declining
residential real estate market—coupled with management’s failure to recognize and act upon
weakening market conditions—led to deteriorating asset quality and significant losses,
particularly in the CLD loan portfolio.


                                                34
Appendix 1 – (continued)
The bank’s CLD loans almost doubled from $41.6 million in 2004 to $82.3 million by 2007.
Neighborhood’s CLD loan concentration reached 389 percent of total capital by 2006 and
subsequently remained well above 300 percent. This concentration was triple the bank’s peer
group averages for CLD concentrations between 2004 and 2008. Examiners did not question the
advisability of this growth strategy even though concentrations of credit increase a financial
institution’s vulnerability to changes in the marketplace and compound the risks inherent in
individual loans.

3.   Board of Directors and Management Accountability for Managing the Risks
     Associated with New Activities and Implementing Required Corrective Actions

Many of the supervisory histories associated with the failures that we reviewed illustrate the need
to reinforce key supervisory fundamentals. The examples outlined below demonstrate the
importance of examination teams (1) assuring that the Board of Directors and management
appropriately mitigate the risks associated with strategic transitions or new business activities,
(2) using escalating supervisory actions when appropriate, and (3) assuring that Boards of
Directors and management timely implement required corrective actions. In addition,
supervisors should ensure CAMELS composite and component ratings are consistent with
narrative examination comments to clearly convey the need for urgent action when appropriate.

BankFirst – Supervision of Strategic Changes and New Business Activities Consistent with
the CBEM

In this failure, FRB Minneapolis did not devote sufficient supervisory attention to verifying that
BankFirst’s Board of Directors and management implemented a credit risk management
framework to sufficiently control the bank’s rapid growth in a new activity—CRE lending.
Supervisory guidance related to assessing Board of Directors and management oversight of new
business activities contained in the CBEM states that examiners should confirm that bank
management has implemented the infrastructure and internal controls necessary to manage the
risks associated with new business activities.

Elmwood – Supervision of New Products and Business Activities Consistent with the
CBEM

Elmwood failed because its Board of Directors and management pursued a risky growth strategy
that featured new loan products and out-of-market lending without developing adequate credit
risk management controls. The bank’s credit risk management weaknesses noted by examiners
in 2006 and 2007 provided early warning signs regarding (1) the potential for asset quality
deterioration in Elmwood’s growing loan portfolio, and (2) management’s ability to control the
bank’s increasing credit risk profile. The examination reports issued during this period
highlighted credit administration deficiencies, such as inadequate monitoring of out-of-market
CRE participation loans, incomplete financial data on borrowers and projects, and weak loan
underwriting standards. Examiners warned that credit administration deficiencies could make it
difficult for management to detect and promptly correct credit problems. Additionally, the 2007

                                                35
Appendix 1 – (continued)
examination report noted a significant increase in classified assets and a corresponding rise in
past due and non-accrual loans, yet the bank received an asset quality component 2 rating. In our
opinion, the weaknesses cited by examiners warranted an appropriate supervisory response in
2007 compelling bank management to immediately correct the identified deficiencies. In this
failure, the Board of Directors and management had not established the control infrastructure
necessary to support new products and activities in new markets, yet examiners did not hold
management accountable for these deficiencies.

IUBT – Escalating Supervisory Actions

Over the course of a five-year period, supervisors implemented four informal enforcement
actions in the form of Board of Directors’ resolutions related to the bank’s key corporate control
weaknesses, pervasive internal control deficiencies, and risk management weaknesses. Despite
mounting evidence of the bank’s inability to resolve these issues, supervisors did not take
escalating supervisory action against the bank related to its key weaknesses until two years after
the issuance of the last Board of Directors Resolution. In our opinion, the continued
ineffectiveness of the Board of Directors Resolutions and the findings from subsequent full
scope examinations warranted CAMELS rating downgrades and escalating enforcement actions
specifying time frames for required actions. In 2006, examiners’ observation that the bank’s
internal control weaknesses exceeded weaknesses at other institutions supervised by FRB
Chicago warranted a more forceful supervisory response, especially given the bank’s escalating
risk profile.

Barnes – Assuring that the Board of Directors and Management Timely Implement
Corrective Actions

Circumstances noted during a 2007 full scope examination—including repeated regulatory
criticisms, declining market trends, and continuing growth of Barnes’ CLD loan portfolio—
provided FRB San Francisco an opportunity to pursue earlier, more forceful supervisory action.
The examination cited several deficiencies regarding credit risk management, CRE
concentrations monitoring, the ALLL methodology, and other critically important control
processes. Specifically, examiners reiterated criticisms regarding the bank’s loan grading, stress
testing, strategic planning, and ALLL methodology processes. The examination report also cited
concerns regarding repeat external audit findings, including a deficiency in segregating duties
within the credit function that allowed loan officers to review, approve, and fund loans.
Additionally, examiners expressed concern over (1) Barnes’ aggressive growth in CRE lending
despite evidence of pronounced economic weaknesses within that market segment, and (2)
“continued inaction” by the bank to resolve prior recommendations. We believe that other
supervisory actions were warranted at the conclusion of the 2007 examination, such as
downgrading CAMELS ratings or executing an informal enforcement action.

A June 2008 credit risk target examination provided another opportunity to pursue earlier, more
forceful supervisory action. The target examination provided strong evidence that Barnes’ risk
profile and financial condition had significantly changed, and examiners once again repeated

                                                36
Appendix 1 – (continued)
prior criticisms. While FRB San Francisco subsequently performed a separate ratings
assessment and downgraded several CAMELS ratings, an enforcement action was not executed
until May 2009, nearly one year after the target examination was initiated. This failure
highlights the need for escalating responses to the Board of Directors and management’s failure
to resolve previously noted examination issues in a timely manner.

Midwest – CAMELS Ratings Consistent with Examination Comments

The Midwest failure demonstrates the importance of CAMELS composite and component
ratings being consistent with the narrative examination comments. In our opinion, the risks
associated with specific examination findings appeared to warrant rating downgrades.

Our report on the Midwest failure noted that FRB Chicago did not hold management accountable
for failing to diversify the bank’s loan portfolio and funding sources between 2005 and 2007.
During this time, management succeeded in achieving double-digit growth, but failed to address
the weaknesses that ultimately contributed to the bank’s failure, including CRE and CLD
concentrations and reliance on non-core funding and holding company capital support. We
believe that a 2007 full scope examination presented the opportunity to downgrade the bank’s
asset quality and liquidity ratings. We believe the bank’s asset quality rating did not reflect the
risks associated with the bank’s increase in classified assets and other problem loans. Further the
bank’s liquidity rating did not reflect an increasing dependence on non-core funding and a sharp
decline in the bank’s primary liquidity ratio.

Further, in our opinion, a 2008 full scope examination presented another opportunity for stronger
supervisory action. Specifically, the severity of the findings noted during this examination
warranted additional CAMELS component rating downgrades and a CAMELS composite
downgrade. This examination acknowledged management’s failure to diversify the bank’s loan
portfolio and funding sources—two key strategic objectives of the new management team—but
did not downgrade the bank’s management component rating. Also, we believe that Midwest’s 2
liquidity component rating did not reflect the gravity of the persistent challenges facing the
institution. If these additional component rating downgrades had occurred, four of the six
CAMELS components would have received 3 ratings, which would have led to a CAMELS
composite rating downgrade to a 3 (fair).

4. Limitations of PCA Assessments

The following failures reveal the limitations of PCA quantitative assessments of a bank’s capital
position. A quantitative assessment alone does not permit the subjectivity necessary to assess
whether the bank’s capital suffices to support the bank’s risk profile. In this respect, the PCA
designations may directly contradict an examination team’s actual assessment of the bank’s
capital position and thereby send mixed messages to the Board of Directors and management.
We observed three failures where this scenario occurred.




                                                37
Appendix 1 – (continued)
CBON

From 2001 through 2008, CBON’s CRE loan concentration remained approximately double the
300 percent threshold established in SR letter 07-01. 19 In addition, the bank’s CLD
concentration nearly tripled the 100 percent threshold established in the SR letter, and between
2006 and 2008 it quadrupled the recommended amount. The 4,000 percent increase in the
bank’s provision expense between 2007 and 2008 eliminated the bank’s earnings and depleted
the bank’s capital position. During the October 2008 examination, FRB San Francisco noted that
the bank’s current capital level was insufficient for its risks. CBON was well capitalized during
that examination. Following the provision expense and additional asset quality deterioration, the
bank eventually dropped beneath PCA’s well capitalized designation in May 2009, and the bank
failed three months later after becoming critically undercapitalized in August 2009. This failure
reveals a limitation in PCA’s quantitative assessments of a bank’s capital position.

Marco

Marco grew more quickly than management anticipated in its business plan and relied on capital
injections from the holding company to sustain operations. The growth resulted in Marco
developing high concentrations in (1) the CLD component of the bank’s CRE loan portfolio, and
(2) home equity lines of credit. Also, in 2006 and 2007, the bank executed management’s
strategic decision to supplement its declining loan production by purchasing a pool of short-term
acquisition and renovation loans on properties primarily located in two Florida counties. These
loan pools created an additional concentration risk for Marco. As the local real estate market
weakened, the bank’s asset quality deteriorated significantly and resulted in large provision
expenses that eliminated earnings and depleted capital.

In a 2007 examination, FRB Atlanta concluded that the bank’s capital did not support its
elevated risk profile, even though Marco remained well capitalized. Despite this conclusion, the
bank maintained its well capitalized designation until 2009 because capital support from the
bank’s holding company helped to offset the capital depletion associated with Marco’s
significant asset quality deterioration. The holding company eventually exhausted its available
resources to support the bank, and Marco declined from a well capitalized institution to a failed
institution in just over six months. This failure highlights the disconnect that can exist between
PCA’s quantitative assessment of capital and a subjective assessment of the bank’s capital
position in relation to its risks.

Midwest

Similar to the Marco failure, Midwest also relied on capital support to maintain its well
capitalized designation. As the bank experienced asset quality deterioration related to its CRE

        19
             SR letter 07-01 became effective in 2007, so it is provided for illustrative purposes only for data prior to
2007.



                                                            38
Appendix 1 – (continued)
and CLD loan portfolios and following a significant write-down in the value of its Fannie Mae
and Freddie Mac securities, Midwest became increasingly reliant on capital support to sustain its
operations. In December 2008, the bank received $84.8 million from the U.S. Department of the
Treasury’s Troubled Asset Relief Program. In 2008 and 2009, Midwest experienced significant
losses, and Midwest’s holding company injected $87 million in additional capital to preserve the
bank’s well capitalized status. Despite receiving more than $170 million in capital support in a
two-year period, asset quality deterioration associated with the bank’s CRE and CLD loan
portfolios ultimately caused the bank to fail. In this failure, Midwest remained well capitalized
until January 2010, despite a clear disconnect between the bank’s PCA designation and its risk
profile. By 2010, the previous capital injections depleted the holding company’s financial
reserves and prevented it from further supplementing the bank’s capital. The bank failed within
five months. This precipitous decline to failure highlights how rapidly PCA quantitative
assessments can become outdated, because they fail to consider the bank’s actual risk profile in
relation to its capital position.

5. Declines in Financial Performance as a Prerequisite to Supervisory Action

Many failed banks received at least one double or triple downgrade of a CAMELS composite or
component rating prior to failing. The severity of these downgrades highlights a weakness
among many of the examinations that we reviewed. Despite acknowledging and identifying
many of the risks that ultimately caused the bank to fail, examiners appeared reluctant to take
aggressive supervisory action until the bank’s financial performance declined. The deteriorating
economic conditions during the financial crisis demonstrated how quickly specific risks can
affect a bank’s condition, making it critical that such issues are addressed timely. This
supervisory risk highlights the need for forward-looking examinations.

Barnes

Barnes exemplifies a situation where examiners detected key risks but failed to take decisive
supervisory action. As early as 2006, examiners noted increased credit risk due to rapid growth
in CRE loans, specifically CLD loans, which had more than doubled since the prior examination
to 247 percent of the bank’s risk-based capital. SR letter 07-01 indicates that significant CLD
loan concentrations exist at 100 percent; the bank’s CLD loan concentration was more than
double that amount. However, examiners continued to rate the bank’s overall condition
satisfactory, but noted that management planned to reduce its exposure to speculative CLD
lending. Nevertheless, the bank continued to originate CLD loans in 2007 and 2008, despite
apparent weaknesses in Utah’s real estate market and economy. In addition, a 2007 full scope
examination cited repeated regulatory criticisms, declining market trends, and continuing growth
of Barnes’ CLD loan portfolio. Yet Barnes received the same satisfactory CAMELS ratings as
the 2006 exam. A subsequent June 2008 credit risk target examination provided strong evidence
that Barnes’ risk profile and financial condition had significantly changed, and the bank’s
composite rating was downgraded to a 3. Within a year of that downgrade, examiners double
downgraded the bank to a CAMELS composite 5. In an October 2009 exam, Barnes received
another CAMELS composite 5 rating, and all CAMELS components were also assigned 5

                                               39
Appendix 1 – (continued)
ratings. Shortly thereafter in January 2010, the bank was placed in receivership. This failure
highlights the need to take supervisory action when a risk is detected.

Solutions

Solutions provides another example where examiners detected key risks early that did not result
in CAMELS composite and component ratings downgrades until almost a year before the bank
failed. The bank received CAMELS composite 2 ratings for the full scope examinations
conducted between November 2004 and January 2008. In the December 2004 examination
report, examiners noted that earnings “while improving, were weak and less than adequate to
support operations and augment capital during periods of rapid asset growth.” Similarly, a June
2006 examination concluded that earnings would not augment capital given its significant
growth. In addition, the examination also acknowledged that the bank’s net non-core funding
dependence ratio was “well above” its peer group average and violated the bank’s internal
policy. Concerns regarding the bank’s increased reliance on net non-core funding, capital ratios
below its peer group, and the loan portfolio’s large concentration in CRE and CLD were
reiterated in the November 2007 examination, yet the bank maintained its satisfactory rating. In
November 2008, examiners began an asset quality target examination that resulted in Solutions
being double downgraded to a CAMELS composite 4 rating. Capital, asset quality,
management, earnings, and sensitivity were also double downgraded from 2 to 4, while liquidity
was downgraded from 3 to 4. Examiners expressed concern that management’s decision to
execute an aggressive growth strategy without the support of an adequate capital position
resulted in the bank’s unsatisfactory financial condition. Shortly thereafter in an April 2009
examination, the bank was downgraded further to a CAMELS composite 5, and was closed in
December 2009. This failure highlights a situation where the examination team highlighted the
risks that ultimately caused the bank to fail, but did not compel the bank to mitigate those risks.

CapitalSouth

CapitalSouth exemplifies a third situation involving the need for a forward-looking supervisory
approach. In 2003, CapitalSouth’s business strategy focused on CRE lending and growth by
acquisitions. A 2005 examination report highlighted that the bank had little margin for error and
could not afford to have any significant level of problem loans because of its modest earnings
and growth strategy. After examiners released the bank from an informal improvement plan in
2007 designed to address the bank’s earnings weaknesses, capital planning, and credit risk
management, supervisors reiterated the bank’s limited margin for error in absorbing problem
loans and loan losses. The first full scope examination following the bank’s acquisition of a
Florida federal savings association resulted in a CAMELS composite rating double downgrade
and double downgrades to all CAMELS component ratings except for sensitivity to market risk.
The examination resulted in a C&D Order requiring enhanced Board of Directors and
management oversight, credit risk management practices, lending and credit administration
policies, and loan review policies. The bank experienced substantial asset quality deterioration,
management could not resolve the requirements of the order, and the bank failed.


                                                40
Appendix 1 – (continued)
6. Limitations of SR Letter 07-01

For each MLR and in-depth review, we sent a team to the applicable Reserve Bank to discuss the
circumstances surrounding the failure. We conducted those discussions with senior management
at the Reserve Bank and senior examination staff. During those interviews, we typically sought
feedback concerning SR Letter 07-01 given the nexus between credit concentrations and SMB
failures. During those discussions, we heard the following criticisms of SR Letter 07-01:

   •   The guidance would have been more useful two to three years earlier. The proposed
       guidance was distributed for comment in January 2006, but the final guidance was not
       issued until January 2007.

   •   SR Letter 07-01 was not very forceful, and aspects of the guidance could be implemented
       by banks gradually.

   •   The guidance was very high-level. As an example, a Reserve Bank examiner mentioned
       that expectations for stress testing were not well defined, even though stress testing at
       many community banks was in its infancy.

Our failed bank reports did not evaluate the validity of these criticisms. In our estimation, these
observations suggest that there may be a need to revisit the guidance based on lessons learned
from the financial crisis.




                                                 41
Appendix 2 – List of SMB Failuresa

                                                                                Projected
                                                      Asset                      Loss to     Loss as
                                                      Size                        DIF         % of
               SMB        Location   FR District    (millions)   Closure Date   (millions)   Assets
         First Georgia
         Community
     1   Bank               GA          AT              229       12/5/2008       72.2        32%
     2 County Bank          CA           SF             1,692      2/6/2009       135.8       8%
         Riverside Bank
         of the Gulf
     3   Coast              FL          AT              536.7     2/13/2009       201.5       38%
         Michigan
     4   Heritage Bank      MI          CH              160.9     4/24/2009       68.3        42%
         Neighborhood
         Community
     5   Bank               GA          AT              210.4     6/26/2009       66.6        32%
         Community
         Bank of West
     6   Georgia            GA          AT              200       6/26/2009       85.1        43%
     7   BankFirst          SD          MN              246.1     7/17/2009        90         37%
         Community
         First
     8   (Prineville)       OR           SF             199.8      8/7/2009       44.4        22%
         Community
     9   Bank of Nevada     NV           SF             1,500     8/14/2009       766.5       51%
         CapitalSouth
    10   Bank               AL          AT              588.5     8/21/2009        146        25%
         Irwin Union
    11   Bank &Trust        IN          CH              2,700     9/18/2009       552.4       20%
    12 Warren Bank          MI          CH              530.9     10/2/2009       276.3       52%
         San Joaquin
    13   Bank               CA           SF             771.8     10/16/2009      90.4        12%
         Bank of
    14   Elmwood            WI          CH              339.1     10/23/2009      90.6        27%
    15 Orion Bank           FL          AT              2,700     11/13/2009      593.8       22%
    16 SolutionsBank        KS          KC              510.1     12/11/2009       119        23%
         Independent
    17   Bankers Bank       IL           IL             773.7     12/18/2009      20.8        3%
         Barnes Banking
    18   Company            UT           SF             745.5     1/15/2010       266.3       36%
         Marco
         Community
    19   Bank               FL          AT              126.9     2/19/2010       36.9        29%
         Sun American
    20   Bank               FL          AT              543.6      3/5/2010        103        19%
    21 Bank of Illinois     IL          CH              205.3      3/5/2010       53.7        26%
         Old Southern
    22   Bank               FL          AT              351       3/12/2010       90.5        26%
         1st Pacific
    23   Bank               CA           SF             327.3      5/7/2010       75.1        23%

                                                   43
Appendix 2 – (continued)

                                                                                                                  Projected
                                                                                Asset                              Loss to     Loss as
                                                                                Size                                DIF         % of
                         SMB               Location       FR District         (millions)           Closure Date   (millions)   Assets
                  Midwest Bank
           24 and Trust                        IL               CH              3,100                 5/14/2010     200.7       6%
                  Metro Bank of
           25 Dade County                      FL               AT              442.3                 7/16/2010     67.6        15%
           26 Thunder Bank                     KS               KC               32.6                 7/23/2010      4.5        14%
           27 Sterling Bank                    FL               AT              407.9                 7/23/2010     45.5        11%
                  Home Valley
           28 Bank                            OR                SF              251.8                 7/23/2010     37.1        15%
                  Pacific State
           29     Bank                        CA                SF              312.1                 8/20/2010     32.6        10%

           30 Horizon Bank                     FL               AT              187.8                 9/10/2010     58.9        31%
                  Progress Bank
           31     of Florida                   FL               AT               93.4                10/22/2010      25         27%
                  First Banking
           32 Center                           WI                IL             785.8                11/19/2010     142.6       18%
                  Paramount
           33     Bank                         MI                IL             239.3                12/10/2010     89.4        37%
                  First
                  Commercial
           34     Bank of Florida              FL               AT              614.5                 1/5/2011       78         13%
                  Community
                  First Bank of
           35     Chicago                      IL                IL              51.5                 2/4/2011      11.7        23%
a
    The data reported in the table reflects the amount reported by the FDIC in formal notice to our office.




                                                                           44
Appendix 2 – (continued)
Tables 1 and 2 below summarize the geographic distribution and total asset size distribution
according to peer group of the 35 failed banks reviewed by the OIG. As Table 1 illustrates, the
failures were concentrated in three geographic regions—the Southeast, Midwest, and West.
Within each of the regions, the failures were concentrated in specific states. Ten of the 14
failures from the Southeast involved Florida banks, and 3 others involved Georgia banks. Seven
of the 13 failures in the Midwest related to Michigan and Illinois banks—with 3 and 4 SMB
failures occurring in each state, respectively. Four out of the eight failures in the Western region
involved California banks. Table 2 outlines the peer group distribution of the failed banks
according to the institutions’ total asset size preceding the failure. Thirty-one of the 35 failed
banks reviewed clustered in 3 peer groups—11 banks in $100 to $300 million, 16 banks in $300
million to $1 billion, and 4 banks in $1 to $3 billion. The average total asset size for the banks
reviewed was approximately $649 million, and the average loss to the DIF associated with the
failures reviewed was 21 percent of total assets.

Table 1 – Failed SMBs by Region

  Region         Banks
 Southeast        14
 Midwest          13
 West              8
      Total       35


Table 2 – Failed SMBs by Peer Group

 Peer Group According to Total Asset
                                                Failed Banks Reviewed
 Size
 Less than $50 million                                        1
 $50-$100 million                                             2
 $100-$300 million                                           11
 $300 million-$1 billion                                     16
 $1 billion-$3 billion                                        4
 Greater than $3 billion                                      1
                                        Total                35




                                                 45
Appendix 3 – Summary Results Tables

We compiled the following tables to help summarize the results of our analysis of the 20 banks
that required an MLR or in-depth review by the OIG. These tables identify specific common
characteristics related to the causes of the failures in the MLRs that have been completed. The
tables also identify common characteristics related to the supervision of each of the failed banks.
The tables provide a nonexhaustive summary of our results.

Table 1- Contributing Causes of the Failures

                 Contributing Causes of the Failure
                 Strategic        Reliance on                       Risk           Liberal
                 Planning,        Certain                           Management     Maturity
                                                    Concentration                                 De Novo
                 Decision-        Specific                          or Internal    Extensions
                                                    Risk                                          Bank
                 making, or       Funding                           Control        and Interest
                 Execution        Sources                           Deficiencies   Reserves
Bank of
                       X                X                 X               X
Elmwood
BankFirst              X                                  X               X              X
Barnes Banking
                       X                                  X               X              X
Company
Capital South          X                                  X               X
Community
                       X                                  X               X
Bank of Nevada
Community
Bank of West           X                                  X               X                           X
Georgia
Community
                       X                                  X               X
First
County Bank            X                                  X               X
First Georgia
Community              X                X                 X
Bank
Irwin Union
                       X                X                 X               X
Bank and Trust
Marco
Community              X                X                 X               X                           X
Bank
Michigan
                       X                                  X               X
Heritage
Midwest Bank
                       X                X                 X               X
and Trust
Neighborhood
Community              X                                  X               X
Bank
Orion Bank             X                X                 X               X              X
Riverside Bank
of the Gulf            X                X                 X
Coast
San Joaquin            X                X                 X                              X
Solutions Bank         X                X                 X
Warren Bank            X                                  X               X              X
Independent
                       X                X                 X               X
Bankers' Bank



                                                          47
Appendix 3 – (continued)
Table 2 – Summary of Supervisory Observations and Loan Concentrations
                    Supervisory Observations                          Loan Concentrations
                                  CAMELS
                    Need for                                                                                  CLD
                                  Ratings                                            As of Date    CRE as %
                    Stronger                                                                                  as % of
                                  Inconsistent   Specific                            for CRE       of Risk-
                    Supervisory                                       Failure Date                            Risk-
                                  with           Recommendations                     and CLD       Based
                    Action                                                                                    Based
                                  Narrative                                          Data          Capital
                    Sooner                                                                                    Capital
                                  Comments
Bank of
                         X                                             10/23/2009     3/31/2008     249.24     51.2
Elmwood
BankFirst                X                                             7/17/2009      12/31/2007    220.73    166.22
Barnes Banking
                         X             X                               1/15/2010      6/30/2008     449.4     337.9
Company
Capital South            X                                             8/21/2009      12/31/2007    564.12    299.06
                                                 Clarification
                                                 concerning pre-
Community Bank
                         X                       merger examination    8/14/2009      12/31/2007    590.74    399.6
of Nevada
                                                 requirements in SR
                                                 Letter 98-28
Community Bank
                         X             X                               6/26/2009      9/30/2007     667.04    421.1
of West Georgia
Community First          X                                              8/7/2009      12/31/2007    542.02    238.05
                                                 CBEM updates to
                                                 address
                                                 examination
County Bank              X                       frequency for de       2/6/2009      6/30/2007     419.05    156.01
                                                 novo banks and
                                                 cross reference SR
                                                 Letter 91-17
First Georgia
                         X                                             12/5/2008      3/31/2007     680.4     418.13
Community Bank
Irwin Union
                         X             X                               9/18/2009      12/31/2007    279.62    78.87
Bank and Trust
                                                 Timely notice of
Marco
                         X                       brokered deposit      2/19/2010      6/30/2008     347.05    191.54
Community Bank
                                                 restrictions
Michigan
                         X                                             4/24/2009      9/30/2007     292.35    167.72
Heritage
                                                 Disagreements with
Midwest Bank
                         X             X         state supervisory     5/14/2010      9/30/2008     694.71    154.35
and Trust
                                                 agencies
Neighborhood
                         X                                             6/26/2009      9/30/2007     558.94    383.22
Community Bank
Orion Bank               X                                             11/13/2009     3/31/2008     643.62    414.87
Riverside Bank
                         X                                             2/13/2009      6/30/2007     442.99    337.16
of the Gulf Coast
San Joaquin              X                                             10/16/2009     3/31/2008     675.64    289.84
Solutions Bank           X                                             12/11/2009     3/31/2008     679.97    365.38
Warren Bank              X                                             10/2/2009      3/31/2008     560.56    274.16
Independent
                         X                                             12/18/2009     3/31/2008     194.48     59.8
Bankers' Bank




                                                           48
Appendix 4 – Glossary of Banking and Regulatory Terms

Allowance for Loan and Lease Losses (ALLL)

A valuation reserve established and maintained by charges against the bank’s operating income.
As a valuation reserve, it is an estimate of uncollectible amounts that is used to reduce the book
value of loans and leases to the amount that is expected to be collected. The reserve must be
sufficient to absorb probable losses inherent in the institution’s loan and lease portfolio.

Board Resolution

An informal supervisory enforcement action that represents a number of commitments made by a
bank’s Board of Directors. The commitments are incorporated into the bank’s corporate
minutes. There are three types of informal supervisory actions, and their order, by increasing
severity, is commitment, board resolution, and memorandum of understanding.
Brokered Deposits

A deposit purchased from a broker acting as an agent for depositors. The broker pools
certificates of deposit from many small investors and markets them to financial institutions,
usually in blocks nearing $100,000, and negotiates a higher rate for certificates of deposit placed
with the purchaser. Federal law prohibits undercapitalized banks and thrifts from accepting
brokered deposits.

Classified Assets

Loans that exhibit well-defined weaknesses and a distinct possibility of loss. Classified assets
are divided into more specific subcategories ranging from least to most severe: “substandard,”
“doubtful,” and “loss.” An asset classified as “substandard” is inadequately protected by the
current sound worth and paying capacity of the obligor or of the collateral pledged, if any. An
asset classified as “doubtful” has all the weaknesses inherent in one classified as “substandard,”
with the added characteristic that the weaknesses make full collection or liquidation highly
questionable and improbable. An asset classified as “loss” is considered uncollectible and of
such little value that its continuance as a bankable asset is not warranted.

Cease-and-Desist Order (C&D Order)

A formal supervisory enforcement action against a financial institution or an institution-affiliated
party that violates a law, rule, regulation, written commitment, or written agreement, or that is
engaged in unsafe or unsound business practice. The order may require a financial institution or
institution-affiliated party to (1) stop engaging in specific practices or violations or (2) take
action to correct any resulting conditions. The provisions of a C&D and the problems found at
the institution are more severe than those of a written agreement, which is the least severe type of
formal supervisory enforcement action.




                                                49
Appendix 4 – (continued)

Commercial Real Estate (CRE) Loans

Land development and construction loans (including one- to four-family residential and
commercial construction loans) and other land loans. CRE loans also include loans secured by
multifamily property and nonfarm, nonresidential property where the primary source of
repayment is derived from rental income associated with the property or the proceeds of the sale,
refinancing, or permanent financing of the property.

Concentration

A significant amount of direct or indirect extensions of credit and contingent obligations that
possess similar risk characteristics. Typically, loans to related groups of borrowers, loans
collateralized by a single security or securities with common characteristics, and loans to
borrowers with common characteristics within an industry have been included in homogeneous
risk groupings when assessing asset concentrations.

Construction and Land Development (CLD) Loans; also known as Construction, Land,
and Land Development (CLD) Loans

A subset of commercial real estate loans, secured by real estate (including non-agricultural
vacant land), for (1) on-sight construction of industrial, commercial, residential, or farm
buildings, and (2) land development, including pre-construction preparatory work such as laying
sewer and water pipes.

Core Deposits

Deposits that are largely derived from a bank’s regular customer base and, therefore, are
typically the most stable, least costly, and least interest-rate sensitive source of funding.

De Novo

A State Member Bank that has been in operation for five years or less.

Enforcement Actions

The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that may be taken, typically after the completion of an on-site bank
examination. Formal enforcement actions consist of Written Agreements, Temporary C&D
Orders, C&D Orders, Prohibition and Removal Orders, and Prompt Corrective Action
Directives; while informal enforcement actions include Commitments, Board Resolutions, and
MOUs.




                                                 50
Appendix 4 – (continued)
Federal Home Loan Bank

One of 12 banks chartered by Congress in 1932 to provide low-cost credit to residential housing
lenders. Federal Home Loan Banks help meet the borrowing needs of communities by providing
credit products and services to member financial institutions. Each bank is privately owned by
its members, which include commercial banks, savings institutions, credit unions, thrift and loan
companies, and insurance companies.

Interest Reserves

Accounts set up and funded to periodically advance loan funds to pay interest charges on the
outstanding balance of an acquisition, development, and construction loan or a construction,
land, and land development loan. The interest is capitalized and added to the loan balance.

Liquidity

The ability to accommodate decreases in liabilities and to fund increases in assets. A bank has
adequate liquidity when it can obtain sufficient funds, either by increasing liabilities or
converting assets, promptly and at a reasonable cost.

Memorandum of Understanding (MOU)

A highly structured written, but informal, supervisory enforcement action that is signed by both
the Reserve Bank and the member bank’s Board of Directors. An MOU is generally used when
a bank has multiple deficiencies that the Reserve Bank believes can be corrected by the present
management. There are three types of informal supervisory actions, and their order, by
increasing severity, is commitment, board resolution, and MOU.

Net Interest Margin

A ratio that evaluates the relationship between net interest income and assets generating interest
income. The net interest margin is calculated by dividing the difference between a bank’s
interest income on a tax equivalent basis and interest expense by the average of the respective
asset accounts involved in generating interest income.

Net Non-core Funding Dependence Ratio

A ratio that measures the extent to which a bank is funding longer-term assets with non-core
funding. The net non-core funding dependence ratio is calculated by dividing the difference
between an institution’s non-core liabilities and short-term investments by long-term assets.
Higher ratios reflect a reliance on funding sources that may not be available in times of financial
stress or adverse changes in market conditions.



                                                51
Appendix 4 – (continued)

Non-Core Funding

Funding that can be very sensitive to changes in interest rates, such as brokered deposits,
certificates of deposit greater than $100,000, federal funds purchased, and borrowed money.

Prompt Corrective Action (PCA)

A framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital positions have declined below certain threshold levels. It was intended
to ensure that action is taken when an institution becomes financially troubled, in order to resolve
the problems of the institution at the least possible long-term loss to the DIF. The capital
categories are well capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.

State Member Bank (SMB)

Commercial banks that are state chartered and members of the Federal Reserve System.

Secondary Mortgage Market

A market where institutions buy and sell mortgages in the form of whole loans (that is,
mortgages that have not been securitized) and mortgage-related securities.

Sub-prime loans

Loans made to borrowers with the following characteristics: (1) a relatively high default
probability; (2) a bankruptcy in the last 5 years; (3) 2 or more 30-day delinquencies in the last 12
months or 1 or more 60-day delinquencies in the last 24 months; (4) a judgment, foreclosure,
repossession, or charge-off in the last 24 months; and/or (5) a debt-service-to-income ratio of 50
percent or greater.

Tier 1 Capital

The sum of core capital elements (common equity, including capital stock, surplus, and
undivided profits; qualifying noncumulative perpetual preferred stock; and minority interest in
the equity accounts of consolidated subsidiaries) less any amounts of goodwill, other intangible
assets, interest only strips receivables and nonfinancial equity investments that are required to be
deducted, and unrealized holding losses in the available-for-sale equity portfolio, as well as any
investments in subsidiaries that the Federal Reserve determines should be deducted from tier 1
capital. Tier 1 capital elements represent the highest form of capital, namely, permanent equity.




                                                 52
Appendix 4 – (continued)
Underwriting

Detailed credit analysis preceding the granting of a loan, based on credit information furnished
by the borrower, such as employment history, salary, and financial statements; publicly available
information, such as the borrower’s credit history; and the lender’s evaluation of the borrower’s
credit needs and ability to pay.

Uniform Bank Performance Report (UBPR)

An analytical tool created for bank supervisory, examination, and bank management purposes.
The report facilitates evaluation of a bank’s current condition, trends in its financial
performance, and comparisons with the performance of its peer group.

Written Agreement (WA)

A formal supervisory enforcement action that is generally issued when a financial institution or
an institution-affiliated party has multiple deficiencies that are serious enough to warrant formal
action or that have not been corrected under an informal action. It is an agreement between a
financial institution and the Federal Reserve Board or a Federal Reserve Bank that may require
the financial institution or the institution-affiliated party to (1) stop engaging in specific practices
or violations or (2) take action to correct any resulting conditions. The agreement may also
require the financial institution to provide ongoing information, such as progress reports. This
enforcement action is the least severe of the formal enforcement actions.




                                                  53
Appendix 5 – CAMELS Rating System
Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution’s financial condition and
operations. These component factors address the adequacy of capital, the quality of assets, the
capability of management, the quality and level of earnings, the adequacy of liquidity, and the
sensitivity to market risk (CAMELS). Evaluations of the components take into consideration the
institution’s size and sophistication, the nature and complexity of its activities, and its risk
profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates
the highest rating, the strongest performance and risk management practices, and the least degree
of supervisory concern, while a 5 indicates the lowest rating, the weakest performance,
inadequate risk management practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the Board of
Directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences, such as economic
instability in their trade area. These financial institutions are in substantial compliance with laws
and regulations. As a result, these financial institutions exhibit the strongest performance and
risk management practices relative to the institutions’ size, complexity, and risk profile and give
no cause for supervisory concern.

Composite 2

Financial institutions in this group are fundamentally sound. For financial institutions to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the Board of Directors’ and management’s
capabilities and willingness to correct. These financial institutions are stable and are capable of
withstanding business fluctuations. These financial institutions are in substantial compliance
with laws and regulations. Overall risk management practices are satisfactory relative to the
institutions’ size, complexity, and risk profile. There are no material supervisory concerns; and,
as a result, the supervisory response is informal and limited.




                                                 55
Appendix 5 – (continued)
Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institutions’
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
There are serious financial or managerial deficiencies that result in unsatisfactory performance.
The problems range from severe to critically deficient. The weaknesses and problems are not
being satisfactorily addressed or resolved by the Board of Directors and management. Financial
institutions in this group generally are not capable of withstanding business fluctuations. There
may be significant noncompliance with laws and regulations. Risk management practices are
generally unacceptable relative to the institutions’ size, complexity, and risk profile. Close
supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the DIF. Failure is a
distinct possibility if the problems and weaknesses are not satisfactorily addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices
relative to the institutions’ size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management’s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed in order for the
financial institutions to be viable. Ongoing supervisory attention is necessary. Institutions in
this group pose a significant risk to the DIF, and failure is highly probable.




                                                 56
Appendix 6 – Deputy Division Director’s Comments


                                BOARD OF GOVERNORS
                                              OF THE

                              FEDERAL RESERVE SYSTEM
                                       WASHINGTON, D.C. 20551



                                     September 28, 2011


Mr. Anthony Castaldo
Associate Inspector General
20th Street and Constitution Avenue, NW
Washington, DC 20551

Dear Mr. Castaldo,

       Thank you for the opportunity to review and comment on the Office of Inspector General
(OIG) draft September 2011 report entitled “Summary Results of Failed Bank Reviews”. The
Federal Reserve Board (FRB) concurs with the general findings of the report.

        In the draft report, the OIG recommends that the Director of Banking Supervision and
Regulation (BS&R) consider taking various actions to address common elements that
contributed to State Member Bank (SMB) failures. Specifically, the OIG recommends that
BS&R consider the following recommendations: (1) supplement current examiner training
programs with case studies from recent SMB failures, (2) develop standard examination
procedures to evaluate compensation agreements, and (3) provide supplementary guidance on
commercial real estate (CRE) concentrations. Also suggested for BS&R’s consideration are to:
(1) continue to work with other federal banking agencies to identify opportunities to enhance
Prompt Corrective Action (PCA), (2) define the appropriate supervisory response for highly
concentrated SMBs that continue to pursue aggressive growth strategies, and (3) implement a
supervisory approach that encourages strong and consistent supervisory action during stable
economic periods.

       BS&R generally agrees with the specific recommendations and matters for consideration.
The recommendation to enhance examiner training with case studies from recent failures will be
considered as examiner education programs are reviewed and revised. Some case studies have
already been presented by Federal Reserve staff via the Banking Supervision Learning Center.
With regard to compensation agreements, interagency work is underway to prescribe regulations
and guidelines to address incentive compensation based on the requirements of the Dodd-Frank
Wall Street Reform and Consumer Protection Act. This work, along with the recommendation to
develop standard examination procedures for all SMBs will be considered in any future revisions
to examination processes. Further, work is underway to update interagency guidance related to
CRE concentrations.
                                                57
Appendix 6 – (continued)
         The need to enhance PCA, address growth strategies, and implement a stronger
supervisory approach during stable periods will be considered as supervisory processes are
revised and to some extent may require interagency coordination for effective implementation.
Thus far, an examination issues tracking process has been developed for Federal Reserve
systemwide use to enhance the monitoring of supervisory issues for Federal Reserve-supervised
institutions. This is intended to be used to minimize uncorrected safety and soundness
weaknesses and lead to more timely supervisory attention. With regard to PCA, while early in
the process, interagency work is underway to review and improve capital standards based on the
requirements of the Dodd-Frank Wall Street Reform and Consumer Protection Act and the U.S.
implementation of the Basel III capital accord.

        As noted above, some recommendations require interagency agreement and coordination
and may require a long-term approach to implementation. Where specific action has not been
taken, BS&R will consider the recommendations as we continue to refine our processes and
programs after an assessment of lessons learned during the financial crisis. Practical limitations
will need to be considered, as well as the possibility of unintended consequences.

                                            Sincerely,

                                             /signed/

                                         Maryann Hunter
                                         Deputy Director




                                                58
Appendix 7 – Office of Inspector General Principal Contributors to This
            Report
Michael P. VanHuysen, Project Leader and OIG Manager

Timothy P. Rogers, OIG Manager

Sopeany P. Keo, Auditor




                                          59
